1a
APPENDIX A
United States Court of Appeals
For the First Circuit
-----------------------------------------------------------------------

No. 19-1848
BERNARD WAITHAKA, on behalf of himself
and all others similarly situated,
Plaintiff, Appellee,
v.
AMAZON.COM, INC.; AMAZON LOGISTICS, INC.,
Defendants, Appellants.
-----------------------------------------------------------------------

APPEAL FROM THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
[Hon. Timothy S. Hillman, U.S. District Judge]
-----------------------------------------------------------------------

Before
Howard, Chief Judge,
Lipez, and Thompson, Circuit Judges.
-----------------------------------------------------------------------

David B. Salmons, with whom James P. Walsh, Jr.,
Noah J. Kaufman, Michael E. Kenneally, and Morgan,
Lewis & Bockius LLP were on brief, for appellants.
Harold L. Lichten, with whom Shannon LissRiordan, Adelaide H. Pagano, and Lichten & LissRiordan, P.C. were on brief, for appellee.

2a
Archis A. Parasharami and Mayer Brown LLP on
brief for the Chamber of Commerce of the United
States of America and the National Association of
Manufacturers, amici curiae.
Corbin K. Barthold, Richard A. Samp, and Washington Legal Foundation on brief for Washington Legal
Foundation, amicus curiae.
Toby J. Marshall, Blythe H. Chandler, Elizabeth A.
Adams, Terrell Marshall Law Group PLLC, Jennifer D.
Bennett, and Public Justice on brief for Public Justice,
amicus curiae.
-----------------------------------------------------------------------

July 17, 2020
-----------------------------------------------------------------------

LIPEZ, Circuit Judge. This putative class action requires us to decide whether employment contracts of certain delivery workers -- those locally
transporting goods on the last legs of interstate journeys -- are covered by the Federal Arbitration Act
(“FAA” or the “Act”), given its exemption for “contracts
of employment of seamen, railroad employees, or any
other class of workers engaged in foreign or interstate
commerce.” 9 U.S.C. § 1. We have not considered the
scope of the exemption since the Supreme Court held
in Circuit City Stores, Inc. v. Adams, 532 U.S. 105
(2001), that this provision is limited to employment
contracts of “transportation workers.” After close
examination of the text and purpose of the statute
and the relevant precedent, we now hold that the

3a
exemption encompasses the contracts of transportation workers who transport goods or people within the
ﬂow of interstate commerce, not simply those who
physically cross state lines in the course of their work.
Plaintiff-appellee Bernard Waithaka, a so-called
“last mile” delivery driver for defendants-appellants
Amazon.com, Inc. (“Amazon.com”) and its subsidiary,
Amazon Logistics, Inc. (“Amazon Logistics”),1 falls within
this category of transportation workers whose contracts
are exempt from the FAA. Hence, we conclude that the
FAA does not govern the enforceability of the mandatory arbitration provision of his employment agreement
with appellants. Because that provision prohibits proceeding on a class basis, either in the arbitral or judicial forum, we also agree with the district court that
the arbitration provision is unenforceable under state
law. Therefore, we afﬁrm the district court’s denial of
appellants’ motion to compel arbitration.
I.
A. Factual Background2
Amazon.com and Amazon Logistics are based in Seattle, Washington. Amazon sells retail products online
1

We refer collectively to appellants as “Amazon.”
“Because [Amazon’s] motion to compel arbitration was
made in connection with a motion to dismiss or stay, we draw the
relevant facts from the operative complaint and the documents
submitted to the district court in support of the motion to compel
arbitration.” Cullinane v. Uber Techs., Inc., 893 F.3d 53, 55 (1st
Cir. 2018).
2

4a
to customers throughout the United States. To “ensure
that millions of packages reach their ﬁnal destination
as efﬁciently as possible,” Amazon Logistics provides
package delivery services “through the last mile of the
order.” Amazon attributes its success as “one of the
world’s largest online retailers,” in part, to its “accurate
and timely package delivery.”
Historically, Amazon has used third-party delivery
providers, such as FedEx, UPS, and the United States
Postal Service, to deliver its products. In recent years,
however, Amazon has also begun to contract with independent contractors for delivery services through
its Amazon Flex (“AmFlex”) smartphone application.
These contractors, like Waithaka, sign up for delivery
shifts and then use their own methods of transportation -- typically, a private vehicle -- to deliver products
ordered through Amazon within a speciﬁed timeframe
and in compliance with other Amazon service standards. AmFlex contractors are paid an hourly rate for
their delivery shifts. But if contractors require more
time than a normal shift to complete all of their deliveries, they are not compensated for the additional time.
Nor do they receive any reimbursement for their gas,
car maintenance, or cellphone data expenses.
To begin work with AmFlex, a prospective contractor must download the AmFlex app, create an account,
login, and agree to the AmFlex Independent Contractor Terms of Service (the “Agreement” or the “TOS”).
The second paragraph of the TOS states:

5a
YOU AND AMAZON AGREE TO RESOLVE
DISPUTES BETWEEN YOU AND AMAZON
ON AN INDIVIDUAL BASIS THROUGH FINAL AND BINDING ARBITRATION, UNLESS YOU OPT OUT OF ARBITRATION
WITHIN 14 CALENDAR DAYS OF THE EFFECTIVE DATE OF THIS AGREEMENT, AS
DESCRIBED BELOW IN SECTION 11.
Section 11 of the Agreement (the “dispute resolution section”) further explains the arbitration requirement and also states that the parties waive their rights
to bring class actions:
11. Dispute Resolution, Submission to
Arbitration.
a) SUBJECT TO YOUR RIGHT TO OPT
OUT OF ARBITRATION, THE PARTIES
WILL RESOLVE BY FINAL AND BINDING
ARBITRATION, RATHER THAN IN COURT,
ANY DISPUTE OR CLAIM, WHETHER
BASED ON CONTRACT, COMMON LAW,
OR STATUTE, ARISING OUT OF OR RELATING IN ANY WAY TO THIS AGREEMENT, INCLUDING TERMINATION OF
THIS AGREEMENT, TO YOUR PARTICIPATION IN THE PROGRAM OR TO YOUR
PERFORMANCE OF SERVICES. TO THE
EXTENT PERMITTED BY LAW, THE PRECEDING SENTENCE APPLIES TO ANY
DISPUTE OR CLAIM THAT COULD OTHERWISE BE ASSERTED BEFORE A GOVERNMENT ADMINISTRATIVE AGENCY.

6a
b) TO THE EXTENT PERMITTED BY
LAW, THE PARTIES AGREE THAT ANY
DISPUTE RESOLUTION PROCEEDINGS
WILL BE CONDUCTED ONLY ON AN INDIVIDUAL BASIS AND NOT ON A CLASS OR
COLLECTIVE BASIS.
...
g) THIS AGREEMENT SHALL NOT BE
INTERPRETED AS REQUIRING EITHER
PARTY TO ARBITRATE DISPUTES ON A
CLASS, COLLECTIVE OR REPRESENTATIVE BASIS, EVEN IF A COURT OR ARBITRATOR INVALIDATES OR MODIFIES OR
DECLINES TO ENFORCE THIS AGREEMENT IN WHOLE OR IN PART.3
Two parts of the Agreement pertain to the parties’
choice of law. The dispute resolution section includes
a provision stating that “the Federal Arbitration
Act and applicable federal law will govern any dispute
that may arise between the parties.” In a separate
section (the “governing law section”), the TOS indicates the law that governs the interpretation of the
Agreement:

3

For clarity, we refer to the provision of the dispute resolution section that relates to the arbitration requirement (subsection a) as the “arbitration provision” and those provisions that
relate to class claims (subsections b and g, as well as several other
provisions of Section 11 that reiterate that the Agreement does
not permit the parties to pursue claims or receive relief on a class
basis) as the “class waiver provisions.”

7a
12.

Governing Law.

The interpretation of this Agreement is governed by the law of the state of Washington
without regard to its conﬂict of laws principles, except for Section 11 of this Agreement,
which is governed by the Federal Arbitration
Act and applicable federal law.
Finally, the Agreement includes a severability provision, which states that “[i]f any provision of this
Agreement is determined to be unenforceable, the parties intend that this Agreement be enforced as if the
unenforceable provisions were not present and that
any partially valid and enforceable provisions be enforced to the fullest extent permissible under applicable law.”
Waithaka, a resident of Massachusetts, “on-boarded”
into the AmFlex program on January 13, 2017, and accepted the TOS on that same date. He did not opt out
of the arbitration agreement. Since 2017, Waithaka
has collected packages for delivery in Massachusetts
and has not crossed state lines in the course of his deliveries.
B. Procedural Background
Waithaka ﬁled this action in Massachusetts state
court in August 2017, asserting three claims against
Amazon: (1) misclassiﬁcation of AmFlex drivers as independent contractors, rather than employees; (2) violation of the Massachusetts Wage Act by requiring
AmFlex drivers to “bear business expenses necessary

8a
to perform their work”; and (3) violation of the Massachusetts Minimum Wage Law. He seeks to bring these
claims on behalf of himself and “individuals who have
worked as delivery drivers for [appellants] in the Commonwealth of Massachusetts and have been classiﬁed
as independent contractors.”
Although Amazon timely removed the case to federal court, the district court remanded the case after
concluding that the putative class did not meet the requisite amount in controversy for jurisdiction pursuant
to the Class Action Fairness Act (“CAFA”). Waithaka v.
Amazon.com, Inc., No. 17-40141-TSH, 2018 WL 4092074,
at *3 (D. Mass. Aug. 28, 2018). However, Amazon was
successful when it again removed the case in September 2018. Concluding that the amount in controversy
had increased since the ﬁrst removal and that the second removal was not time-barred, the district court denied Waithaka’s second motion to remand. Waithaka
v. Amazon.com, Inc., 363 F. Supp. 3d 210, 212-14 (D.
Mass. 2019).
In April 2019, Amazon moved to compel arbitration pursuant to the TOS, or, in the alternative, to
transfer the case to the United States District Court
for the Western District of Washington so that the case
could proceed with similar, earlier-ﬁled litigation that
was pending. In August 2019, the district court denied
in part and granted in part the motion. Waithaka v.
Amazon.com, Inc., 404 F. Supp. 3d 335, 339 (D. Mass.
2019). Speciﬁcally, the district court concluded that
Waithaka’s Agreement was exempt from the FAA, that
Massachusetts law therefore governed the enforceability

9a
of the arbitration provision, and that the provision was
unenforceable based on Massachusetts public policy.
Id. at 343, 346, 348. However, the court granted appellants’ alternative request to transfer the case, which
has since occurred.4 Id. at 349-51.
Amazon timely ﬁled this appeal, challenging the
district court’s denial of the motion to compel arbitration. The parties agreed to stay the Washington proceedings pending the resolution of the appeal.
II.
The interpretation of arbitration agreements and
the issuance of orders compelling arbitration, or declining to do so, are subject to de novo review. Gove v.
Career Sys. Dev. Corp., 689 F.3d 1, 4 (1st Cir. 2012).
Similarly, we review de novo choice of law determinations. Robidoux v. Muholland, 642 F.3d 20, 22 (1st Cir.
2011).
A. Background of the FAA
Congress passed the FAA in 1925 “to overcome judicial hostility to arbitration agreements.” Circuit
City, 532 U.S. at 118 (quoting Allied-Bruce Terminix
Cos., Inc. v. Dobson, 513 U.S. 265, 272-73 (1995)). The
Act reﬂects a “liberal federal policy favoring arbitration agreements,” Moses H. Cone Mem’l Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 24 (1983), and provides
4

The district court’s decision to transfer the case is not challenged in this appeal.

10a
that “[a] written provision in . . . a contract evidencing
a transaction involving commerce to settle by arbitration a controversy thereafter arising out of such contract . . . shall be valid, irrevocable, and enforceable,” 9
U.S.C. § 2 (emphasis added). The Supreme Court has
held that the phrase “involving commerce” in Section 2
-- referred to as the “coverage” provision of the FAA,
Circuit City, 532 U.S. at 115 -- reﬂects Congress’s “intent to exercise [its] commerce power to the full,” Allied-Bruce, 513 U.S. at 277.
Despite the broad scope of Section 2, the FAA does
not apply to all contracts that include arbitration provisions. Section 1 of the Act exempts employment contracts of certain categories of workers from the Act’s
coverage. See 9 U.S.C. § 1. Speciﬁcally, the Act does
not apply “to contracts of employment of seamen, railroad employees, or any other class of workers engaged
in foreign or interstate commerce.” Id. This case concerns the scope of the residual clause of that exemption: “or any other class of workers engaged in foreign
or interstate commerce.”
In Circuit City the Supreme Court rejected the
contention that Section 1 exempts from the FAA’s
coverage all employment contracts. 532 U.S. at 119.
Instead, it held that the provision exempts “only contracts of employment of transportation workers.” Id.
In reaching this conclusion, the Court articulated principles for interpreting the FAA, and Section 1 in particular.

11a
First, phrases similar to the language of Section 1
-- “in commerce” and “engaged in commerce” -- are
terms of art that have not been interpreted as expansively as the phrase “involving commerce,” the terminology used in Section 2. Id. at 115-16. To reach that
conclusion, the Court examined how these respective
phrases had been interpreted in other statutory contexts. Id. at 116-17 (citing Jones v. United States, 529
U.S. 848, 855 (2000) (interpreting federal arson statute); United States v. Am. Bldg. Maint. Indus.,
422 U.S. 271, 279-80 (1975) (interpreting Clayton Act);
Gulf Oil Corp. v. Copp Paving Co., 419 U.S. 186, 199202 (1974) (interpreting Robinson-Patman Act and
Clayton Act); FTC v. Bunte Bros., Inc., 312 U.S. 349,
350-51 (1941) (interpreting Federal Trade Commission
Act)). Second, the residual clause must be interpreted
in light of the speciﬁcally enumerated categories of
workers that directly precede it, consistent with the
ejusdem generis canon of statutory construction.5 Id.
at 114-15. Third, the Act’s pro-arbitration purpose
counseled in favor of narrowly construing the Section
1 exemption. Id. at 118-19. Finally, while there was
“sparse” legislative history on the Section 1 exemption, id. at 119, excluding transportation workers from
the FAA’s coverage was consistent with “Congress’[s]
5

Pursuant to this canon of construction, “[w]here general
words follow speciﬁc words in a statutory enumeration, the general words are construed to embrace only objects similar in nature
to those objects enumerated by the preceding speciﬁc words.” Circuit City, 532 U.S. at 114-15 (alteration in original) (quoting 2A
Norman J. Singer, Sutherland on Statutes and Statutory Construction § 47.17 (1991)).

12a
demonstrated concern with transportation workers
and their necessary role in the free ﬂow of goods,” id.
at 121.
B. Scope of the Transportation Worker Exemption
Using the principles articulated in Circuit City as
a guide, we turn now to the interpretive question
raised in this case: does Waithaka belong to a “class of
workers engaged in foreign or interstate commerce,”
such that his contract with appellants is exempt from
the FAA’s coverage?
In answering that question, we note that the Supreme Court recently held that the Section 1 exemption
does not apply exclusively to contracts of “employees,”
but rather to “agreements to perform work,” including
those of independent contractors. New Prime Inc. v.
Oliveira, 139 S. Ct. 532, 544 (2019). Accordingly, there
is no dispute that the independent contractor agreement at issue here would fall within the Section 1 exemption if Waithaka qualiﬁes as a transportation
worker.
Importantly, in New Prime, the Court supplemented the interpretive guidance of Circuit City by
instructing that we must interpret the Section 1 exemption according to the “fundamental canon of statutory construction that words generally should be
interpreted as taking their ordinary . . . meaning . . .
at the time Congress enacted the statute.” 139 S. Ct.
at 539 (alterations in original) (internal quotation

13a
marks omitted) (quoting Wisc. Cent. Ltd. v. United
States, 138 S. Ct. 2067, 2074 (2018)). As a threshold
matter, the parties disagree about which words within
the exemption (the Act does not apply “to contracts of
employment of seamen, railroad employees, or any
other class of workers engaged in foreign or interstate
commerce,” 9 U.S.C. § 1 (emphasis added)) are important
to our interpretive task. Amazon asserts that the
key to understanding the scope of the residual clause
is the meaning of the phrase “interstate commerce.”
Whether the contracts of a group of workers fall within
the ambit of the clause, Amazon contends, turns on the
activities the workers were hired to perform. Only if
the workers’ activities themselves qualify as “interstate commerce”6 can they qualify as transportation
workers whose employment contracts are exempt from
the FAA. Because Waithaka and his fellow local delivery drivers do not personally carry goods across state
lines and engage only in intrastate activities, Amazon
maintains that they are not covered by the residual
clause.
Waithaka counters that “engaged in” is the crucial
phrase for understanding the exemption. When the
FAA was enacted in 1925, Waithaka insists, there was
an understanding that workers could be “engaged in
. . . interstate commerce” without crossing state lines;
rather, this phrase included workers who “transport[ed]
goods or passengers (or facilitat[ed] the transportation
6

Because the parties do not contend that Waithaka “engaged
in foreign . . . commerce,” we focus only on the meaning of “engaged in . . . interstate commerce.” See 9 U.S.C. § 1.

14a
of goods and passengers) within a single state that
[were] ultimately going to or coming from another
state.”
We agree with Waithaka that understanding the
scope of the residual clause turns not only on the deﬁnition of “interstate commerce,” but also on the words
that precede that phrase: “engaged in.” The Court in
Circuit City did not look solely to the phrase “interstate commerce” to interpret the scope of the Section 1
exemption. Rather, it emphasized the signiﬁcance of
the words modifying that phrase. 532 U.S. at 115-17.
Therefore, to determine what it meant to be “engaged
in” interstate commerce in 1925, and thus whether
Waithaka and his fellow AmFlex workers fall within
the scope of the transportation worker exemption, we
consider the interpretation of statutes contemporaneous with the FAA, the sequence of the text of the exemption, the FAA’s structure, and the purpose of the
exemption and the FAA itself. Cf. id. at 111-21.
1. Contemporaneous Statutes
In considering the scope of the phrase “engaged in”
interstate commerce, the Court in Circuit City ﬁrst rejected an argument that it should give the phrase “a
broader construction than justiﬁed by its evident language” simply because the FAA was enacted at a time
when Congress’s power to regulate pursuant to the
Commerce Clause was circumscribed. 532 U.S. at 11618. The petitioner in Circuit City asserted that, because the phrase “engaged in . . . interstate commerce,”

15a
as it was understood in 1925, “came close to expressing the outer limits of Congress[’s Commerce Clause]
power as then understood,” the Court should interpret
the Section 1 exemption to be co-extensive now with
the more expansive modern understanding of the Commerce Clause. Id. at 116. According to the logic of
the petitioner’s argument, Congress likely thought in
1925 that it was excluding all employment contracts
within the scope of its Commerce Clause authority,
and, hence, the Court should interpret Section 1 as exempting the broader range of contracts that are now
understood to be within Congress’s Commerce Clause
authority. See id.
The Court rejected that argument, concluding that
it would lead to a constantly shifting understanding of
the meaning of the statutory language. Id. at 117. Rather, the Court afﬁrmed that its task in interpreting
Section 1 was to assess the meaning of the words in the
exemption when written. See id. at 117-19. Thus, it
looked to the interpretation of similar phrases in statutes contemporaneous to the FAA. Id. at 117-18. Relying on its interpretation of the phrase “engaged in
commerce” in the Clayton Act, enacted in 1914, the
Court noted that this jurisdictional phrase “appears to
denote only persons or activities within the ﬂow of interstate commerce.” Id. at 118 (quoting Gulf Oil Corp.,
419 U.S. at 195). That deﬁnition reﬂected “[t]he plain
meaning of the words ‘engaged in commerce,’ ” which
“is narrower than the more open-ended formulations
‘affecting commerce’ and ‘involving commerce’ ” -- phrases
that have been interpreted as expressing Congress’s

16a
intent to exercise its Commerce Clause power to its
fullest extent.7 Id.
Consistent with the approach used in Circuit City,
Waithaka urges us to consider the Court’s interpretation of a similar jurisdictional phrase in the Federal
Employers’ Liability Act (the “FELA”), which he contends is particularly helpful for understanding what it
meant for a transportation worker to be “engaged in
interstate commerce” at the time of the FAA’s enactment in 1925. Passed in 1908, the FELA contains language nearly identical to that of Section 1 of the FAA.
45 U.S.C. § 51 (1908); see Tenney Eng’g, Inc. v. United
Elec. Radio & Mach. Workers of Am., (U.E.) Local 437,
207 F.2d 450, 453 (3d Cir. 1953) (noting that Congress
“must have had [the FELA] in mind” when drafting the
residual clause in Section 1 of the FAA, given that Congress “incorporat[ed] almost exactly the same phraseology” into the FAA).
In relevant part, that statute provided that “[e]very
common carrier by railroad while engaging in commerce between any of the several States . . . shall be
7

In Circuit City, the Court acknowledged that common jurisdictional phrases like “engaged in interstate commerce” do not
“necessarily have a uniform meaning whenever used by Congress.” 532 U.S. at 118 (quoting Am. Bldg. Maint. Indus., 422
U.S. at 277). Although Amazon seizes on this language, asserting
that this admonition means we would be remiss to rely on the
meaning given to these jurisdictional phrases in contemporaneously passed statutes, Amazon overstates the Court’s qualiﬁcation. By using as one of our interpretive tools the Court’s
interpretation of statutes contemporaneous with the FAA, we
simply follow the Court’s lead.

17a
liable in damages to any person suffering injury while
he is employed by such carrier in such commerce.” 45
U.S.C. § 51 (1908). Congress passed this version of the
FELA after the Supreme Court held that an earlier
version -- which had provided coverage to all employees of a carrier engaged in interstate commerce -- went
beyond Congress’s Commerce Clause power, as it
was then understood, and was therefore unconstitutional. See The Employers’ Liability Cases, 207 U.S.
463, 498-99, 504 (1908). Unlike the earlier version, the
amended statute provided coverage only when both
the railroad and the employee were “engaged in interstate commerce” at the time of the injury.8 Second Employers’ Liability Cases, 223 U.S. 1, 51-52 (1912).
In numerous cases, the Supreme Court considered
when a railroad employee was “engaged in interstate
commerce,” such that the FELA provided coverage for
injuries sustained on the job. Whether a worker had
moved across state lines was not dispositive. Rather,
the Court concluded that workers “engaged in interstate commerce” did not refer only to those workers
who themselves carried goods across state lines, but
also included at least two other categories of people:
(1) those who transported goods or passengers that
were moving interstate, see, e.g., Phila. & Reading Ry.
8

Although the text of the FELA refers to workers “employed”
in interstate commerce, the cases interpreting the statute say
that the words “employed” and “engaged” are interchangeable.
See, e.g., Phila., B. & W.R.R. Co. v. Smith, 250 U.S. 101, 102, 104
(1919) (considering whether employee was “engaged in interstate
commerce within the meaning of the statute” and concluding that
“he was employed . . . in interstate commerce”).

18a
Co. v. Hancock, 253 U.S. 284, 285-86 (1920), and (2) those
who were not involved in transport themselves but
were in positions “so closely related” to interstate transportation “as to be practically a part of it,” see Shanks
v. Del., Lackwanna, & W.R.R. Co., 239 U.S. 556, 558-59
(1916) (collecting cases).
Although Waithaka contends that both categories
supply helpful guidance for assessing whether workers
with activities similar to his would have been “engaged
in . . . interstate commerce” in 1925, we limit our focus
to the ﬁrst group -- those who transported goods themselves. Because there is no dispute that Waithaka and
other AmFlex workers are involved in such transport,
the FELA precedents pertaining to the narrower category of workers who were themselves transporting
goods that were moving between states are most relevant for our purpose. Accordingly, we do not determine
whether the second category of workers considered to
be “engaged in interstate commerce” for purposes of
the FELA -- those who were “engaged in interstate
commerce” by virtue of the close relationship between
their work and interstate transportation -- are also
transportation workers “engaged in . . . interstate commerce” for purposes of the FAA.9
9

In declining to consider the applicability of this second line
of cases from the FELA context to the FAA, we do not imply that
the contracts of workers “practically a part” of interstate transportation -- such as workers sorting goods in warehouses during
their interstate journeys or servicing cars or trucks used to make
deliveries -- necessarily fall outside the scope of the Section 1 exemption. Some of our sister circuits have described Section 1 as
covering workers “who are actually engaged in the movement of

19a
We therefore focus on the FELA precedents pertaining to workers who were transporting goods that
were moving interstate -- consistent with Circuit City’s
own focus on “the ﬂow of interstate commerce.” Examining these cases reveals that the Court consistently
has held that a worker transporting goods that had
come from out of state or that were destined for out-ofstate locations was “engaged in interstate commerce,”
even if the worker’s role in transporting the goods occurred entirely within a single state. In Seaboard Air
Line Railway v. Moore, 228 U.S. 433 (1913), the Court
held that a railroad worker thrown from a train was
“engaged in interstate commerce” at the time of his injury because the train was hauling two freight cars of
lumber in Florida that were destined for New Jersey.
Id. at 434-35. And, in Philadelphia & Reading Railway
Co. v. Hancock, 253 U.S. 284 (1920), the Court concluded that an injured railroad worker who was operating a train loaded with coal to be shipped out of state
was engaged in interstate commerce, even though he
was operating the train exclusively in Pennsylvania as

interstate or foreign commerce or in work so closely related
thereto as to be in practical effect part of it.” See, e.g., Tenney,
207 F.2d at 452. And in 1925 the preceding categories of “seamen”
and “railroad employees” were understood to include workers who
were not themselves engaged in transportation activities. See
New Prime, 139 S. Ct. at 542-43 (noting that “[a]t the time of the
[FAA]’s passage, shipboard surgeons who tended injured sailors
were considered ‘seamen’ ”). Nevertheless, we choose to decide
this case narrowly, leaving for another day the resolution of the
“closely related to” question.

20a
it carried coal two miles from a coal mine to a railroad
storage yard. Id. at 285-86. The Court noted that
[t]he coal was in the course of transportation
to another state when the cars left the mine.
There was no interruption of the movement; it
always continued towards points as originally
intended. The determining circumstance is
that the shipment was but a step in the transportation of the coal to real and ultimate destinations in another state.
Id. at 286. Ultimately, the Court concluded that a
“trainman” was employed in interstate commerce “if
any of the cars in his train contained interstate
freight.” Id. at 285.
However, when a railroad worker was working on
a railroad car that was not carrying goods destined for
or coming from another state, the Court drew the line
and concluded that the worker was not, at that point,
“engaged in interstate commerce.” See Ill. Cent. R.R.
Co. v. Behrens, 233 U.S. 473, 477-78 (1914) (holding
that a worker moving several freight cars “all loaded
with intrastate freight” within the city of New Orleans
when he was fatally injured was not engaged in interstate commerce).
Amazon marshals several reasons why these
FELA precedents do not shed light on the meaning of
“engaged in . . . interstate commerce” within Section 1
of the FAA. First, Amazon contends that Circuit City
dismisses the FELA speciﬁcally as irrelevant to interpreting the FAA. This contention misconstrues Circuit

21a
City. There, the Court referenced two cases interpreting the FELA in recognizing that, in the early twentieth century, “engaged in interstate commerce” “came
close to expressing the outer limits of Congress’[s]
power as then understood.” 532 U.S. at 116 (citing The
Employers’ Liability Cases, 207 U.S. at 498, and Second Employers’ Liability Cases, 223 U.S. at 48-49).
However, by discussing these cases and, as we have already noted, refusing to interpret the phrase “engaged
in interstate commerce” based on the modern understanding of the Commerce Clause power, the Court did
not, as Amazon contends, dismiss the FELA as irrelevant for interpreting the meaning of those words in the
FAA. Hence, by looking to these FELA precedents to
understand the original meaning of the phrase in 1925,
we are not engaging in a method of interpretation that
Circuit City forbids.
Amazon also asserts that these FELA cases are inapt because the focuses of the FELA and the FAA differ. Whether a class of workers’ employment contracts
are exempt from the FAA turns on whether the workers are “engaged in . . . interstate commerce,” whereas
the FELA’s coverage, according to Amazon, turned on
whether a railroad carrier for whom an injured employee worked was engaged in interstate commerce.
But this argument overlooks Congress’s amendments
to the FELA in 1908 and the holding of the Second Employers’ Liability Cases described above: the FELA applied only when both the carrier and the injured
employee had been engaged in interstate commerce.
223 U.S. at 51-52. That is, the FELA was concerned

22a
with the activities of employees, just as the FAA is. Indeed, in Moore, Hancock, and Behrens -- the FELA
precedents that we have discussed, the question before
the Court was the same as it is here: whether certain
transportation workers engaged in interstate commerce.
Amazon also contends that, because the FELA is
a remedial statute that has been construed liberally,
see Atchison, Topeka & Santa Fe Ry. Co. v. Buell, 480
U.S. 557, 561-62 (1987), it is a poor guide for interpreting the FAA exemption, which must be given “a narrow
construction” in light of the FAA’s purpose, see Circuit
City, 532 U.S. at 118-19. Speciﬁcally, Amazon emphasizes that the remedial purpose of the FELA may have,
in certain circumstances, inﬂuenced the Court’s interpretation of the scope of the FELA’s coverage. See
Shanks, 239 U.S. at 558 (noting that, given “the nature
and usual course of the business to which the [FELA]
relates and the evident purpose of Congress in adopting” it, the phrase “engaged in interstate commerce”
should not be interpreted in a “technical legal sense”
and thus should include those workers “so closely related” to interstate transportation “as to be practically
a part of it”). However, there is no indication that the
remedial purpose of the FELA affected the Supreme
Court’s conclusion that injured railroad workers who
were transporting within one state goods destined for
or coming from other states -- activities comparable to
those performed by Waithaka -- were engaged in interstate commerce. See, e.g., Hancock, 253 U.S. at 285-86
(concluding, without reference to the purpose or liberal

23a
construction of the FELA, that a worker engaged exclusively in local transport of goods destined for another state was “engaged in interstate commerce”).10
Thus, contrary to Amazon’s contentions, the FELA
cases concerning workers directly involved in transport
advance our understanding of the Section 1 exemption.
Consistent with the Supreme Court’s focus on “the ﬂow
of interstate commerce” in Circuit City, these cases
show that workers moving goods or people destined for,
or coming from, other states -- even if the workers were
responsible only for an intrastate leg of that interstate
journey -- were understood to be “engaged in interstate
commerce” in 1925.
To test this conclusion about the original meaning
of the residual clause, based on the FELA precedents,
we look to the other interpretive principles identiﬁed
in Circuit City, which Amazon insists support its reading of Section 1.
2. Sequence of the Words in Section 1
Amazon contends that a textual feature of the residual clause supports its position that the Section 1
exemption covers only workers who themselves cross
state lines. Speciﬁcally, Amazon notes that the phrase
“engaged in . . . interstate commerce” follows “any class
10

Again, we do not imply that the contracts of workers “so
closely related” to interstate transportation “as to be practically a
part of it” fall outside (or inside) the scope of the Section 1 exemption. See Shanks, 239 U.S. at 558. We are simply maintaining
our focus on those workers who themselves transport goods.

24a
of workers” in the residual clause, without reference to
the business of the engaging company. Because of this
sequence, Amazon contends that the activities of the
workers themselves are the crux of the exemption,
without consideration of the geographic footprint and
nature of the business for which they work.
Although our ultimate inquiry is whether a class
of workers is “engaged in . . . interstate commerce,” the
question remains how we make that determination.
The nature of the business for which a class of workers
perform their activities must inform that assessment.
After all, workers’ activities are not pursued for their
own sake. Rather, they carry out the objectives of a
business, which may or may not involve the movement
of “persons or activities within the ﬂow of interstate
commerce,” Circuit City, 532 U.S. at 118 (quoting Gulf
Oil Corp., 419 U.S. at 195) -- the crucial concept reﬂected in the FELA precedents. See Singh v. Uber
Techs. Inc., 939 F.3d 210, 227-28 (3d Cir. 2019) (noting
that, on remand, the district court might consider “information regarding the industry in which the class of
workers is engaged” and “information regarding the
work performed by those workers,” among other factors, to determine whether a group of workers is “engaged in interstate commerce” and thus exempt from
the FAA). Moreover, the language of the residual
clause does not foreclose taking into account the company’s business when considering how to classify the
nature and activities of the workers at issue. Accordingly, Amazon’s contention about the textual focus of
the exemption does not alter our conclusion that we

25a
may consider the nature of the business to assess
whether workers’ activities include the transportation
of goods or people in the ﬂow of interstate commerce.
This conclusion faithfully adheres to the ejusdem
generis canon, invoked by the Court in Circuit City.
Consideration of the nature of the hiring company’s
business carries out the Supreme Court’s instruction
that we must construe the residual clause of Section 1
consistently with the speciﬁc preceding categories of
workers -- “seamen” and “railroad employees” -- whose
employment contracts are exempt from the FAA. See
Circuit City, 532 U.S. at 114-15. Plainly, these groups,
deﬁned by the nature of the business for which they
work, demonstrate that the activities of a company are
relevant in determining the applicability of the FAA
exemption to other classes of workers.
By considering the nature of the business to help
determine whether its workers are transporting goods
or people moving in interstate commerce, we do not ignore the importance of the workers’ own connection to
interstate commerce as Amazon contends. And, to be
clear, we do not hold that a class of workers must be
employed by an interstate transportation business or
a business of a certain geographic scope to fall within
the Section 1 exemption. We simply point out, as is
evident here, that the nature of the business for which
the workers perform their activities is important in determining whether the contracts of a class of workers
are covered by Section 1.

26a
3. Structure of the Residual Clause and the
FAA
In another effort to bolster its limited interpretation of the exemption, Amazon points to the broader
structure of the FAA. In Circuit City, the Supreme
Court noted that “engaged in . . . interstate commerce”
in Section 1 must be interpreted more narrowly than
“involving commerce” in Section 2 of the FAA. Id. at
115-16. Amazon argues that interpreting the residual
clause to encompass workers who are transporting
goods within the ﬂow of interstate commerce eliminates the distinction between Sections 1 and 2 and conﬂates the phrase “engaged in . . . interstate commerce”
with “involving commerce,” contrary to the Supreme
Court’s directive in Circuit City.
This argument plainly fails. In Circuit City, the
Supreme Court rejected the view that Section 1 encompasses all employment contracts with a connection to
interstate commerce -- a construction that would treat
the words “engaged in . . . interstate commerce” as reﬂecting “congressional intent to regulate to the full extent of [Congress’s] commerce power,” i.e., to have the
same reach as the Court previously had given to the
phrase “involving commerce” in Section 2. Id. at 11415. In dismissing that construction of Section 1, the
Court stated that the operative jurisdictional words in
Section 2 -- “involving commerce” -- connote a broader
reach than the words “engaged in . . . interstate commerce,” and similar terms of art, which refer only to
“persons or activities within the ﬂow of interstate commerce.” Id. at 118 (quoting Gulf Oil Corp., 419 U.S. at

27a
195); see also Allied-Bruce, 513 U.S. at 273 (noting that
operative jurisdictional words in Section 2 of the FAA
-- “involving commerce” -- were broader than the “often-found words of art ‘in commerce,’ ” which referred
only to “ ‘persons or activities within the ﬂow of interstate commerce’ ”) (emphasis in original) (citing Am.
Bldg. Maint. Indus., 422 U.S. at 276)).
Thus, Circuit City itself preserves a distinction between the different phrases in Sections 1 and 2. We
are not negating that distinction, as Amazon contends,
by reading Section 1’s exemption to cover certain
transportation workers who do not personally cross
state lines, based on their particular tasks and the nature of the business of their employers. To the contrary,
our conclusion that the residual clause exempts the
contracts of workers transporting goods or people
within the ﬂow of interstate commerce adopts the
meaning of the phrase “engaged in . . . interstate commerce” that the Court itself said preserved the distinction between the two phrases used in Sections 1 and 2.
Hence, nothing in the structure of the FAA alters our
understanding of the original meaning of the “engaged
in . . . interstate commerce” language of the residual
clause.
4. Purpose of the FAA
In a further effort to convince us that the residual
clause applies only when a worker transports goods
across state lines, Amazon argues that the contracts of
Waithaka and his fellow local delivery workers cannot

28a
be covered by the residual clause for two additional
reasons: (1) exempting the employment agreements
of such local workers would be inconsistent with the
pro-arbitration purpose of the FAA and the Supreme
Court’s instruction, in light of the Act’s purpose, that
we narrowly construe Section 1; and (2) adopting
Waithaka’s view of the exemption would make it difﬁcult to administer and, thus, frustrate the Act’s goal of
reducing litigation on the enforceability of arbitration
agreements.
We recognize that the FAA was enacted to counter
hostility toward arbitration and that, accordingly, we
must narrowly construe the statutory exemption from
the Act. See Circuit City, 532 U.S. at 111, 118-19. However, the FAA’s pro-arbitration purpose cannot override the original meaning of the statute’s text. See
New Prime, 139 S. Ct. at 543 (rejecting a narrower construction of the FAA’s exemption provision, even
though that construction advanced the Act’s pro-arbitration policy). Moreover, construing the exemption to
include workers transporting goods within the ﬂow of
interstate commerce advances, rather than undermines, “Congress’[s] demonstrated concern with transportation workers and their necessary role in the free
ﬂow of goods.” See Circuit City, 532 U.S. at 121.
Amazon also offers a more tailored argument about
the statute’s purpose and legislative history. In Circuit
City, the Supreme Court observed that Congress may
have carved out the contracts of seamen and railroad
employees from the FAA because of existing alternative dispute resolution schemes for those groups of

29a
workers. Id. at 120-21. By that logic, Amazon contends, Congress could not have intended to exempt local delivery drivers like Waithaka because no such
alternative exists for them.
Amazon’s argument is unavailing for several reasons. First, the Supreme Court in Circuit City speciﬁcally disclaimed reliance on this legislative history as
the basis for its holding. Id. at 119. Rather, the text of
Section 1 determined the outcome of that case. Id. at
119-21. Indeed, the Court stated that the legislative
history of Section 1 was “quite sparse.” Id. at 119.
Second, the Court addressed congressional intent
only in response to an argument that construing the
residual clause to exempt only transportation workers
would “attribute[ ] an irrational intent to Congress.”
Id. at 121. The Court explained that “[i]t is reasonable
to assume that Congress excluded ‘seamen’ and ‘railroad employees’ from the FAA for the simple reason
that it did not wish to unsettle established or developing statutory dispute resolution schemes covering
speciﬁc workers,” and that “[i]t would be rational for
Congress to ensure that workers in general would be
covered by the provisions of the FAA, while reserving
for itself more speciﬁc legislation for those engaged in
transportation.” Id. However, in offering this explanation for Congress’s exemption of certain transportation
workers, the Court did not say that Section 1 applied
exclusively to transportation workers for whom an alternative dispute resolution system existed. We see no
basis for treating the Court’s inference about Congress’s rationale for excluding speciﬁc industries as a

30a
principle limiting the application of the transportation
worker exemption going forward. See Singh, 939 F.3d
at 224-26. Indeed, the residual clause means that Congress contemplated the future exclusion of workers
other than railroad employees and seamen, and it
did not limit that exclusion to those with available alternative dispute resolution systems. Purpose cannot
override text. See New Prime, 139 S. Ct. at 543. If
Congress had wished, it could have exempted only
“seamen” and “railroad employees,” but, as enacted,
Section l’s exemption also includes a residual clause.
Amazon’s argument about the Act’s purpose to reduce litigation over arbitration agreements fares no
better. Amazon contends that a decision in Waithaka’s
favor would introduce uncertainty about the FAA’s coverage and spawn extensive litigation about the scope
of the residual clause. This scenario, Amazon maintains, would “undermin[e] the FAA’s pro[-]arbitration
purposes and ‘breed[ ] litigation from a statute that
seeks to avoid it.’ ” Circuit City, 532 U.S. at 123 (quoting
Allied-Bruce, 513 U.S. at 275). But, as Waithaka points
out, the notion that Amazon’s proposed standard
would create an easily administrable, bright-line rule
is illusory. If crossing state lines were the touchstone
of the exemption’s test, the parties would still engage
in discovery to determine how often a class of workers
moved interstate and would litigate what portion of a
given group of workers must cross state lines and with
what frequency to qualify as a class of workers “engaged in . . . interstate commerce.”

31a
Moreover, the line-drawing conundrum that Amazon identiﬁes would not stem from our decision. Rather, it is a product of Circuit City itself. In concluding
that the residual clause does not encompass all employment contracts, but only those of transportation
workers, the Court left it to the lower courts to assess
which workers fall within that category. Doing so unavoidably requires the line-drawing that courts often
do.
5. Conclusion
In sum, we reject Amazon’s cramped construction
of Section l’s exemption for transportation workers.
The original meaning of the phrase “engaged in . . . interstate commerce,” revealed by the FELA precedents,
and the text, structure, and purpose of the FAA, all
point to the same conclusion: Waithaka and other lastmile delivery workers who haul goods on the ﬁnal legs
of interstate journeys are transportation workers “engaged in . . . interstate commerce,” regardless of whether
the workers themselves physically cross state lines.11
By virtue of their work transporting goods or people
“within the ﬂow of interstate commerce,” see Circuit
City, 532 U.S. at 118, Waithaka and other AmFlex
workers are “a class of workers engaged in . . . interstate commerce.” Accordingly, the FAA does not govern
11

Although Amazon has relied heavily on the fact that
Waithaka has not crossed state lines in the course of performing
his AmFlex work, Amazon has never contested that products he
and other AmFlex workers deliver cross state lines to reach their
ﬁnal destinations.

32a
this dispute, and it provides no basis for compelling the
individual arbitration required by the dispute resolution section of the Agreement at issue here.
III.
Having concluded that the FAA does not govern
the enforceability of the dispute resolution section of
the Agreement, with its requirement of individual arbitration, we must now decide whether such arbitration may still be compelled pursuant to state law.
Because the parties dispute which state’s law -- that of
Washington or Massachusetts -- governs that enforceability question, our analysis proceeds in two parts.
First, we analyze the contract’s choice-of-law and severability language to determine the governing law.
We conclude that the contract selects the law of Washington. Then, we consider whether conﬂict-of-law principles permit the enforceability of that contractual
choice of Washington law. Because we conclude that
Massachusetts would treat the class waiver provisions
in the Agreement as contrary to the Commonwealth’s
fundamental public policy and that, based on conﬂictof-laws principles, the contractual choice of Washington law would be unenforceable if it would permit such
waivers, we decide that individual arbitration cannot
be compelled pursuant to state law here. We proceed
with an explanation of these conclusions.

33a
A. Contractual Governing Law
To demonstrate that Washington law applies, Amazon points to two aspects of the Agreement: the governing law section and the severability provision. To
reiterate, the governing law section states that “[t]he
interpretation of this Agreement is governed by the
law of the state of Washington without regard to its
conﬂict of laws principles, except for [the dispute resolution section], which is governed by the [FAA] and applicable federal law.” The severability provision states
that “[i]f any provision of this Agreement is determined to be unenforceable, the parties intend that this
Agreement be enforced as if the unenforceable provisions were not present and that any partially valid and
enforceable provisions be enforced to the fullest extent
permissible under applicable law.”
Amazon asserts that, read in combination, these
two aspects of the Agreement require that Washington
law governs the enforceability of the class waiver
and arbitration provisions in the Agreement. Anticipating the possibility that the FAA might not apply to
Waithaka’s claims, Amazon advocates striking the provision in the governing law section stating that the
“FAA and applicable federal law” govern the dispute
resolution section of the Agreement, which includes
the class waiver and arbitration provisions.12 Likewise,
12

Waithaka argues that Amazon forfeited this argument
by failing to explain in its brieﬁng to the district court how the
severability provision affected the choice-of-law analysis. However, the severability argument was raised below and the district
court addressed it in a footnote in its decision. See Waithaka, 404

34a
the portion of the dispute resolution section stating
that “the Federal Arbitration Act and applicable federal law [will] govern any dispute that may arise between the parties” must be severed. What remains is
an express choice of Washington law to govern the “interpretation of the Agreement,” regardless of Washington’s conﬂict-of-laws principles.
Waithaka asserts a different reading of the Agreement. Given that the governing law section states that
Washington law will apply to the interpretation of the
entire Agreement except the dispute resolution section, Waithaka argues that Amazon cannot now claim
that Washington law applies to that section in lieu of
the FAA. Since Amazon did not specify in the Agreement what law applies to the dispute resolution section in the event a court concludes that the FAA is
inapplicable, as we have here, Waithaka contends that
there is no applicable contractual choice of law. In that
absence, Massachusetts law applies to the enforceability of the arbitration provision in the dispute resolution section and its waiver of any class action
proceedings. Waithaka urges that Amazon should bear
the burden of failing to anticipate the present scenario
and, like the district court, we should hold Amazon to
its own “inartful drafting.” Waithaka, 404 F. Supp. 3d
at 344 n.5.
We agree with Waithaka and the district court
that Amazon could have speciﬁed more clearly what
F. Supp. 3d at 344 n.4. We conclude that Amazon sufﬁciently preserved this argument and developed it on appeal.

35a
law applies to the dispute resolution section when the
FAA is inapplicable.13 See, e.g., Palcko v. Airborne Express, Inc., 372 F.3d 588, 590 (3d Cir. 2004) (interpreting a choice-of-law provision that stated explicitly that
“[t]o the extent that the [FAA] is inapplicable, Washington law pertaining to agreements to arbitrate shall
apply”). But Amazon’s shortcomings in drafting the
Agreement do not alter our ultimate conclusion: the
severability argument put forward by Amazon -- to
which Waithaka fails to provide any rebuttal -prevails.
Because the FAA is inapplicable, the portions of the
governing law and dispute resolution sections selecting the FAA must be stricken from the Agreement,
leaving Washington law as the default choice of law for
assessing the enforceability of the arbitration and
class waiver provisions of the parties’ contract.

13

We note another puzzling aspect of the governing law section: its intended scope. While the section’s directive that “[t]his
agreement is governed by the law of the state of Washington without regard to its conﬂict of laws principles” makes abundantly
clear Amazon’s strong preference for that state’s law, which might
be ousted by the application of Washington’s own conﬂict-of-law
principles, we wonder why Amazon limited that choice of Washington law to the “interpretation of the Agreement.” Ultimately,
however, we disagree with Waithaka’s position that this limitation means that Washington law does not apply to the dispute
resolution section of the Agreement. As Amazon points out, the
governing law section describes the FAA as, in effect, governing
“[t]he interpretation of . . . [the dispute resolution section].” Thus,
if the FAA is inapplicable and Washington law applies as a
fallback, Washington law must apply to the interpretation of the
dispute resolution section just as the FAA would.

36a
B. Conﬂict-of-Law Analysis
Despite the contractual choice of Washington law,
Waithaka contends that arbitration nevertheless cannot be compelled pursuant to state law. He offers two
arguments to support that conclusion First, relying on
Scott v. Cingular Wireless, 161 P.3d 1000 (Wash. 2007)
(en Banc), he contends that arbitration cannot be compelled even under Washington law. But to the extent
Washington law would permit the arbitration provision to be enforced, he asserts that the contractual
choice of Washington law is itself unenforceable under
a conﬂict-of-law analysis. As he puts it, a contractual
choice of law cannot deprive him of “unwaivable statutory rights under Massachusetts law,” including the
right to bring his claims as a class action. According to
Waithaka’s conﬂict-of-law argument, the dispute resolution section of the Agreement does not simply require an arbitral forum. It also includes the class
waiver provisions that apply to both judicial and arbitral forums. Including such class waiver provisions in
employment contracts, Waithaka contends, violates
fundamental Massachusetts public policy. He therefore insists that, based on conﬂict-of-law principles, the
contractual choice of Washington law is unenforceable
if it would permit the class waiver provisions. We proceed to analyze Waithaka’s second argument, assuming for purposes of deciding whether arbitration can be

37a
compelled here that Washington law would permit the
class waiver provisions in the Agreement.14
Before we assess this conﬂict-of-law argument, we
must pose a question. Even if the class waiver provisions are unenforceable, as Waithaka argues, could he
still be forced to bring his claims in an arbitral forum,
albeit as a class action? The Agreement itself answers
that question. It “does not provide for, and the parties
do not consent to, arbitration on a class, collective or
representative basis.” The Agreement states explicitly
that it “shall not be interpreted as requiring either
party to arbitrate disputes on a class, collective or representative basis, even if a court or arbitrator invalidates or modiﬁes or declines to enforce this Agreement
in whole or in part.” In other words, the class waiver
provisions cannot be severed from the rest of the
dispute resolution section. If they are unenforceable,
the arbitration provision is also unenforceable.15 Thus,
our assessment of Waithaka’s conﬂict-of-law argument
14

If Waithaka prevails on his conﬂict-of-law argument but
our assumption about Washington law is incorrect, the outcome
in this case would be the same. That is, if the class waiver provisions are in fact unenforceable under Washington law, arbitration
could not be compelled pursuant to state law, albeit based on
Washington rather than Massachusetts law.
15
Our conclusion that we cannot order class arbitration
based on the terms of the Agreement is consistent with the Supreme Court’s conclusion that class arbitration may not be compelled unless the arbitration agreement speciﬁcally contemplates
that form of arbitration. As the Supreme Court put it, the
“changes brought about by the shift from bilateral arbitration to
class-action arbitration” are “fundamental.” See Stolt-Nielsen S.A.
v. AnimalFeeds Int’l Corp., 559 U.S. 662, 686 (2010).

38a
-- that the class waiver provisions are unenforceable -will be dispositive of the ﬁnal question presented here:
can arbitration be compelled at all pursuant to state
law?
We therefore turn to Waithaka’s conﬂict-of-law argument. We begin by reviewing the statutory claims
he asserts and Massachusetts’s treatment of class
waivers in the context of such claims. We then undertake a conﬂict-of-law analysis, considering the contractual governing law and Massachusetts public policy.
1. Statutory Claims and Massachusetts Public Policy
Waithaka asserts three claims on behalf of himself
and others similarly situated under the Massachusetts
Wage Act, the Independent Contractor Misclassiﬁcation Law, and the Minimum Wage Law. Mass. Gen.
Laws ch. 149, §§ 148, 148B & ch. 151, § 1.16 For each of
these statutory provisions, Massachusetts law creates
a private right of action by which a person “may institute and prosecute in his own name and on his own
behalf, or for himself and for others similarly situated,
a civil action for injunctive relief, for any damages,”
and other relevant relief. Id. ch. 149, 150 & ch. 151,
§ 20 (emphasis added). The right to pursue classwide
relief for Wage Act and Independent Contractor Misclassiﬁcation Law claims is further protected by a
16

In his claim concerning the Minimum Wage Law, Waithaka
also cites Mass. Gen. Laws ch. 151, § 7, which delineates the commissioner’s duties in establishing minimum fair wages.

39a
provision that precludes the contractual waiver of certain rights under those statutes. Id. ch. 149, § 148.
This anti-waiver provision states that “[n]o person
shall by a special contract with an employee or by any
other means exempt himself from” Section 150, which,
in turn, provides the statutory right to pursue Wage
Act and Independent Contractor Misclassiﬁcation Law
claims on a class basis. Id. ch. 149, §§ 148, 150.
Waithaka contends that these statutory provisions create a substantive right to bring class actions
and that, in Massachusetts, the protection of that right
reﬂects a fundamental public policy of the state. To
support that claim, Waithaka relies on Feeney v. Dell,
Inc., 908 N.E.2d 753 (Mass. 2009) (“Feeney I”), and Machado v. System4 LLC, 989 N.E.2d 464 (Mass. 2013).
As we will explain, Feeney I considered a question similar to that raised by Waithaka’s argument: whether
the right to bring a consumer class action pursuant to
another Massachusetts statute represented the fundamental public policy of the Commonwealth, and
thereby precluded the contractual waiver of the right
to bring such an action. 908 N.E.2d at 761-765. Although the Massachusetts Supreme Judicial Court
(“SJC”) concluded that the Commonwealth’s public
policy did preclude such a waiver, id., the Supreme
Court, interpreting the FAA in AT&T Mobility LLC v.
Concepcion, 563 U.S. 333 (2001), forced a modiﬁcation
of that holding in a later Massachusetts case, see
Feeney v. Dell, Inc., 989 N.E.2d 439, 44041 (Mass. 2013)
(“Feeney II”). Both Feeney I and Feeney II, the intervening Supreme Court decision in Concepcion, and

40a
Machado are all essential precedent on the conﬂict-oflaw question presented here, and we therefore describe
the reasoning of each case.
In Feeney I, the SJC concluded that the statutory
right to pursue claims as a class provided by the Massachusetts consumer protection act represented the
fundamental public policy of Massachusetts. 908 N.E.2d
at 762. The SJC cited several reasons for that conclusion. First, the Massachusetts legislature “expressly
provided for such [class action] mechanisms” in Section
9(2) of Chapter 93A. Id. The legislative history of
that provision demonstrated a particular concern for
the “aggregation of small consumer protection claims,”
which a consumer might otherwise be unwilling or
unable to pursue as an individual claim. Id. at 76263. Moreover, prohibiting class actions would “undermine[ ] the public interest in deterring wrongdoing”
and would “negatively affect[ ] the rights of those unnamed class members on whose behalf the class action
would proceed.” Id. at 764.
Having concluded that Massachusetts public policy strongly favors class actions in the consumer context, the SJC considered whether it could invalidate a
class waiver -- which was embedded within a mandatory arbitration clause governed by the FAA -- on those
state public policy grounds without risking preemption
by the FAA in this period prior to Concepcion. Id. at
768-69. Finding that the FAA presented no such barrier, see id. at 769, the SJC declined to enforce the class
waiver, id. at 765. To rule otherwise, the SJC noted,
“would in effect sanction a waiver of the right” granted

41a
by Massachusetts consumer protection law to bring a
class action in an arbitral or judicial forum. Id.
Soon thereafter, however, the Supreme Court decided Concepcion. Reviewing California’s treatment of
class action waivers in consumer contracts, the Court
explained that the FAA limits a state’s ability to invalidate class waiver provisions in arbitration clauses
based on the state’s public policy. 563 U.S. at 344-52.17
Based on the reasoning and holding of Concepcion, the
SJC concluded that it had misunderstood the FAA’s
preemptive effect on the Commonwealth’s public policy. Accordingly, following Concepcion, the SJC revisited its Feeney I holding in Feeney II. See Feeney II,
989 N.E.2d at 441.
There, the SJC explained that it now understood
that the FAA, as interpreted by Concepcion, “precludes the invalidation of class waiver provisions in
arbitration clauses in consumer contracts . . . where
the reason for invalidation is that such waivers are
contrary to the fundamental public policy of the
Commonwealth.” Id. Moreover, “[b]ecause that was
17

Speciﬁcally, the Supreme Court decided in Concepcion
whether the FAA “prohibits States from conditioning the enforceability of certain arbitration agreements on the availability of
classwide arbitration procedures.” 563 U.S. at 336. It identiﬁed
two scenarios in which state law would be preempted by the FAA:
(1) where a state law “prohibits outright the arbitration of a particular type of claim,” and (2) where a state law “doctrine normally thought to be generally applicable . . . is alleged to have
been applied in a fashion that disfavors arbitration,” and such an
application “stand[s] as an obstacle to the accomplishment of the
FAA’s objectives.” Id. at 341-43.

42a
[the SJC’s] primary reason in Feeney I for invalidating
the class waiver provision in the arbitration agreement, Concepcion undoes the principal rationale for
[its] decision in Feeney I.” Id. In other words, the fact
that a class waiver in a consumer contract violated a
consumer’s statutory right to bring class claims under
Chapter 93A was no longer relevant in determining whether the waiver could be enforced if the waiver
appeared in an arbitration clause governed by the
FAA.
Nevertheless, the SJC identiﬁed in Feeney II one
ground for invalidating a class waiver that survived
Concepcion’s ruling on the preemptive scope of the
FAA: when a consumer demonstrates that she “effectively cannot pursue a claim against the defendant in
individual arbitration according to the terms of the
agreement, thus rendering . . . her claim nonremediable.” Id. The SJC reasoned that Congress’s intent in
enacting the FAA
was to preserve the availability of an arbitral
forum and remedy for the resolution of disputes
between parties to a commercial contract, and
that it would be contrary to Congressional intent to interpret the FAA to permit arbitration clauses that effectively deny consumers
any remedy for wrongs committed in violation
of other Federal and State laws intended to
protect them.
Id.

43a
Under this new standard, a Massachusetts court
had to determine whether a plaintiff had proven “as a
matter of fact” that the particular class waiver, in combination with the other terms of an arbitration agreement, made her claim nonremediable, effectively allowing
an arbitration agreement to “confer[ on a defendant]
. . . de facto immunity from private civil liability for violations of State law.” Id. at 462-63. To assess whether
a particular class waiver rendered claims nonremediable, a court could consider, among other things, the
complexity of the claims asserted, the amount of damages sought, and the presence of fee-shifting provisions. See id.18
On the same day the SJC issued Feeney II, the
SJC issued Machado, which considered whether the
18

This proposition had a brief life. Just eight days after the
SJC issued Feeney II, the Supreme Court decided American Express Co. v. Italian Colors Restaurant, 570 U.S. 228 (2013). Although the Court was not directly reviewing Feeney II, the
Court’s ruling made clear that the ground on which the SJC believed it could still invalidate a class waiver without risking
preemption by the FAA did not, in fact, survive Concepcion. See
Italian Colors, 570 U.S. at 238 (holding that a class waiver in an
arbitration agreement is enforceable under the FAA even when a
plaintiff shows that the waiver will prevent her from vindicating
her statutory rights). Thus, the SJC issued Feeney v. Dell, Inc.,
993 N.E.2d 329 (Mass. 2013) (“Feeney III”), concluding that, “following [Italian Colors], our analysis in Feeney II no longer comports with the Supreme Court’s interpretation of the FAA.” Id. at
330. Nonetheless, both Feeney I and II remain important for understanding Machado. The FAA is inapplicable to Waithaka’s
claims; thus, the SJC’s abrogation of its holding in Feeney II
based on FAA preemption does not alter the relevance of Feeney
II to our understanding of Machado.

44a
reasoning articulated in Feeney I, applicable to class
waivers in consumer contracts, as now modiﬁed by
Feeney II, also applied to class action waivers in arbitration clauses of employment contracts, like the one
in the Agreement here. See Machado, 989 N.E.2d at
467. The SJC noted that “many of the same public policy arguments [applicable to consumer claims under
Chapter 93A] apply equally well to claims by employees under the Wage Act.” Id. at 470. However, for the
same reasons described in Feeney II, the SJC concluded that the FAA precluded a court from invalidating a class waiver in an employment contract based on
such state public policy grounds. Id. at 471. Despite
the “legitimate policy rationales” that led the Massachusetts legislature to create a statutory right to bring
a class proceeding, codiﬁed in Section 150 of the Wage
Act, the SJC concluded that those public policy concerns were “of no avail” after Concepcion. Id. at 470.
As in the consumer claims context, when the FAA applied, the SJC could invalidate a class waiver in an employment contract only when the plaintiff could
demonstrate that
she lacks the practical means to pursue a
claim in individual arbitration or, put differently, that the class waiver, when combined
with the other terms of the arbitration agreement, “effectively denies [the plaintiff] a remedy

45a
and insulates the defendant from private civil
liability for violations of State law.”
Id. (alteration in original) (quoting Feeney II, 989
N.E.2d at 440).19
Ultimately, the SJC concluded that the plaintiffs
in Machado were unable to make that factual showing.
Because they were seeking damages of approximately
$10,000, the SJC rejected their “contention that their
claims were nonremediable in individual arbitration
because the costs of arbitration would more than surpass any potential recovery that they might be entitled
to.” Id. at 472 (internal quotation marks omitted). In
other words, the plaintiffs had not shown that their
class waiver was invalid based on the narrow ground
that the SJC thought survived Concepcion. Thus, the
Machado plaintiffs were left to pursue their Massachusetts Wage Act claims in individual arbitration. Id.
Despite this outcome, Waithaka urges that the
reasoning of Machado and Feeney I demonstrates that
class waivers in employment contracts, like those in
consumer contracts, are contrary to Massachusetts’s
fundamental public policy, as reﬂected in the three employment statutes under which Waithaka asserts his
claims. Although that state policy cannot serve as a
basis to invalidate a class waiver in an arbitration provision governed by the FAA, Waithaka asserts that the
policy retains force when state law governs.

19

Of course, after Feeney III, this exception recognized by
the SJC was no longer available.

46a
Amazon sees the Massachusetts precedent differently. It argues that Machado shows that “Massachusetts now conﬁnes workers’ substantive right to class
litigation to situations in which the plaintiff ‘effectively cannot pursue [his or her] claim . . . in individual
arbitration.’ ” Because Waithaka seeks damages greater
than those at issue in Machado, Amazon argues, the
class waiver provisions do not leave Waithaka without
a viable means of pursuing relief and, therefore, even
under Massachusetts law, these provisions are not unenforceable as contrary to the Commonwealth’s public
policy.
Amazon’s reading of Machado disregards the way
that Concepcion impacted the SJC’s treatment of the
class waiver at issue there. Amazon’s proposed test
for determining the enforceability of a class waiver -whether a plaintiff can effectively pursue her claim in
individual arbitration based on the amount of damages
sought -- comes directly from Feeney II, see 989 N.E.2d
at 441, in which the SJC identiﬁed an alternative basis
for invalidating a class waiver in the context of a consumer claim after Concepcion held that state public
policy cannot provide that basis when the FAA applies.
The SJC did not say in Feeney II or Machado that
it had changed its view, expressed in Feeney I, that
public policy concerns can invalidate a class waiver.
Moreover, there is signiﬁcant evidence in Machado
that the SJC would conclude that the right to pursue
class relief in the employment context represents the
fundamental public policy of the Commonwealth, such
that this right cannot be contractually waived in an

47a
agreement not covered by the FAA. In addition to the
policy rationales articulated for consumer claims in
Feeney I, such as “the deterrent effect of class action
lawsuits,” the SJC highlighted another signiﬁcant rationale unique to the employment context that supports this non-waiver conclusion. Machado, 989 N.E.2d
at 470 n.12. As the SJC put it, the statutory right to
pursue class relief reﬂects the Commonwealth’s “desire to allow one or more courageous employees the
ability to bring claims on behalf of other employees
who are too intimidated by the threat of retaliation
and termination to exercise their rights.” See id.
Indeed, Massachusetts provides even greater statutory protection for the right to bring class claims in
the employment context than in the consumer claims
context. Massachusetts law speciﬁcally precludes the
waiver of the right to bring class claims arising under
the Wage Act and Independent Contractor Misclassiﬁcation Law. Mass. Gen. Laws. Ch. 149, § 148.20 Such
“[a]nti[-]waiver provisions are characteristic of laws
that protect fundamental public policy.” Melia v. Zenhire,
Inc., 967 N.E.2d 580, 588 (Mass. 2012).
Several statements in Machado conﬁrm that the
SJC would conclude that the Commonwealth’s fundamental public policy protects the right to bring class
actions in the employment context, and, furthermore,
20

The fact that this anti-waiver provision does not extend to
the Minimum Wage Law is not signiﬁcant to our analysis. For
the other reasons stated, the Minimum Wage Law’s own allowance for class claims reﬂects the fundamental public policy of the
Commonwealth.

48a
that it would have reached a contrary conclusion in
that case if the FAA had not preempted Massachusetts
law. The SJC stated forthrightly that it was not “blind
to the fact that the Legislature may ﬁnd its purposes
[in creating a statutory right to bring class claims]
frustrated by [the] outcome” in Machado. 989 N.E.2d
at 470-71. After invalidating and severing another
portion of the employment contract that directly contradicted a different right provided by the Wage Act,21
the SJC stated that it likely would have done the same
with the class waiver if the FAA did not preclude it
from doing so. See id. at 472-73. Speciﬁcally, the SJC
said that “[p]rior to Concepcion, the provision for class
proceedings in § 150 [of the Wage Act] and the [provision that prevents contractual waiver of that right]
likely would have compelled [the SJC] to invalidate
and sever the class waiver.” Id. at 473.

21

The contract included a waiver of multiple damages. Machado, 989 N.E.2d at 472. However, “because the award of treble
damages is mandatory under [the Wage Act], and cannot be
waived,” the SJC invalidated and severed that portion of the contract. Id. at 472-73. The Court explained that it was able to enforce the Wage Act’s mandatory award of treble damages and
anti-waiver provision that protected that entitlement because doing so “does not impinge on any fundamental characteristic of arbitration, nor does it frustrate the purpose of the arbitral forum.”
Id. at 473. Therefore, the FAA did not preempt the SJC’s decision
to invalidate and sever that portion of the arbitration agreement
as contrary to the Commonwealth’s fundamental public policy.
Id. However, because invalidating the class waiver provision
would fundamentally alter the nature of the arbitration proceedings, the SJC could not similarly invalidate and sever the class
waiver provision without running afoul of the FAA. Id.

49a
Thus, based on the SJC’s reasoning in Machado,
we are conﬁdent that the SJC would conclude that, like
the statutory right to proceed as a class in the context
of Massachusetts Chapter 93A consumer claims, the
statutory rights to proceed as a class articulated in
the Massachusetts Wage Act, Independent Contractor
Misclassiﬁcation Law, and Minimum Wage Law -- as
well as the statutory provision that precludes contractual waiver of these rights -- represent the fundamental public policy of Massachusetts, and that the SJC
would therefore invalidate a class waiver in an employment contract, like that of Waithaka, not covered by
the FAA. See Mass. Gen. Laws ch. 149, §§ 148, 150 &
ch. 151, § 20. Notwithstanding the Supreme Court’s
view that such state policies must give way when the
FAA governs a dispute, the policies remain intact
where, as here, the FAA does not preempt state law.
See Machado, 989 N.E.2d at 470-71, 473.22
22

Amazon argues that Massachusetts interprets its own Arbitration Act, Mass. Gen. Laws ch. 251, § 1, identically to the
FAA, and so, in light of Concepcion and Italian Colors, even if
Massachusetts law applied, any public policy against class waivers would give way to Massachusetts’s own pro-arbitration policy.
See Miller v. Cotter, 863 N.E.2d 537, 543 (Mass. 2007) (commenting that the FAA’s “language is remarkably similar to” the Massachusetts Arbitration Act); Walker v. Collyer, 9 N.E.3d 854, 859
(Mass. App. Ct. 2014) (explaining that, in deciphering the Massachusetts Arbitration Act, courts “give strong weight to . . .
decisions applying the Federal Arbitration Act”). But even if
Massachusetts follows the lead of the FAA in interpreting its own
Arbitration Act, that does not help us determine how it balances
competing policy rationales in the absence of federal preemption.
Neither Miller nor Walker has anything to say on that balancing,
and Amazon does not point us to any other cases that do. We

50a
2. The Competing Laws
Because the Agreement’s class waiver provisions
would be invalid under Massachusetts law, we must
assess whether Massachusetts law would oust the contractual choice of Washington law, see supra Section
III.A, -- based on our assumption for purposes of this
case that Washington law would permit the class waiver
provisions to be enforced -- and thereby preclude arbitration from being compelled pursuant to state law.
See Feeney I, 908 N.E.2d at 766 (engaging in conﬂictof-law analysis to determine whether consumer contract’s choice of Texas law was unenforceable as contrary to Massachusetts’s fundamental public policy).
Massachusetts has embraced the conﬂict-of-law principles in the Restatement (Second) of Conflict of Laws.23
See Hodas v. Morin, 814 N.E.2d 320, 324 (Mass. 2004).
The Restatement establishes a two-part inquiry: ﬁrst,
we must assess whether the state chosen by the parties in their contract has a “substantial relationship”
to the contract and, second, whether applying the law
therefore reject the argument that Massachusetts’s public policy
favoring the ability to bring classwide claims gives way to its own
pro-arbitration policy.
23
Federal courts sitting in diversity look to the conﬂict-oflaw principles of the forum state to determine the applicable substantive law. See Klaxon Co. v. Stentor Elec. Mfg. Co., 313 U.S.
487, 496 (1941). Neither party has contested that Massachusetts
remains the “forum state” for purposes of the conﬂict-of-law analysis despite the transfer under the “ﬁrst-to-ﬁle” doctrine to the
Western District of Washington. Cf. Ferens v. John Deere Co.,
494 U.S. 516, 523-27 (1990) (explaining that, when the transfer
of a diversity case occurs under 28 U.S.C. § 1404(a), the state law
of the transferor jurisdiction applies even after the transfer).

51a
of that state -- here, Washington -- “ ‘would be contrary
to a fundamental policy of a state which has a materially greater interest than the chosen state’ and is the
state whose law would apply . . . ‘in the absence of an
effective choice of law by the parties.’ ” Id. at 325 (quoting Restatement (Second) of Conﬂict of Laws § 187(2)
(Am. Law Inst. 1971)).
Washington, where both Amazon.com and Amazon
Logistics are headquartered, has a “substantial relationship” to the contract. See Restatement (Second) of
Conﬂict of Laws § 187(2) cmt. f (Am. Law Inst. 1971)
(noting that a state has a “substantial relationship” to
the contract if it is “where performance by one of the
parties is to take place or where one of the parties is
domiciled or has his principal place of business”). Yet
Amazon does not dispute that, in the absence of an
effective contractual choice of law, the law of Massachusetts would apply. Nor does Amazon contest that
Massachusetts, where Waithaka has indisputably performed all of his work pursuant to the contract, has “a
materially greater interest” in the enforceability of the
class waiver and arbitration provisions than Washington. Moreover, engaging in a conﬂict-of-law analysis in
Feeney I, the SJC had little trouble ﬁnding that, in
a dispute where the Commonwealth’s fundamental
interest in avoiding class waivers was at stake, the
Commonwealth had a “materially greater interest”
than the state whose law would otherwise apply. See
Feeney I, 908 N.E.2d at 76667 & n.32 (noting that the
question of whether Massachusetts has a “materially
greater interest” in a contractual relationship “is

52a
subsumed with [the plaintiffs’] argument that the fundamental public policy favoring class actions” would
result in the application of Massachusetts law) (internal
quotation marks omitted). Ultimately, Amazon contests only whether the fundamental public policy of
Massachusetts barring class waivers in employment
contracts applies when a worker seeks damages of a
sufﬁciently high dollar value. But we have already explained why Amazon’s contention fails.
Hence, assuming that Washington law would permit the class waiver provisions, Massachusetts law
would oust the contractual choice of Washington law
as contrary to the Commonwealth’s fundamental public policy and would govern the enforceability of the
dispute resolution section of the Agreement. Under
Massachusetts law, the class waiver provisions would
be invalid. Because, as noted, see supra Section III.B,
the Agreement stipulates that the class waiver provisions cannot be severed from the rest of the dispute
resolution section, the arbitration provision would be
similarly unenforceable.24
Thus, the district court rightly refused to compel
arbitration pursuant to state law.

24

As we stated already, if our assumption for purposes of our
conﬂict-of-law analysis that Washington would permit class action waivers in employment contracts is incorrect, and thus there
is no actual conﬂict between the law of Washington and Massachusetts, Waithaka would simply prevail under the contractual
choice of Washington law.

53a
IV.
For the foregoing reasons, we afﬁrm the district
court’s denial of Amazon’s motion to compel arbitration.
So ordered.

54a
APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
)
) CIVIL ACTION
) NO. 18-40150-TSH
)
Plaintiffs,
)
)
v.
)
AMAZON.COM, INC. and
)
AMAZON LOGISTICS, INC., )
)
Defendants.
)
BERNARD WAITHAKA,
on behalf of himself and
others similarly situated,

ORDER AND MEMORANDUM ON
DEFENDANTS’ MOTION TO COMPEL
ARBITRATION OR, IN THE ALTERNATIVE,
TO TRANSFER OR STAY
August 20, 2019
HILLMAN, D.J.
Bernard Waithaka (“Plaintiff ”), commenced this
class action lawsuit against Amazon.com Inc., and
Amazon Logistics Inc. (“Defendants”) alleging improper classiﬁcation as independent contractors and
violations of state wage laws. Defendants have moved
to compel arbitration or, in the alternative, to transfer
or stay this litigation. (Docket No. 29) For the reasons
stated below, Defendants’ motion is granted in part
and denied in part.

55a
Background
Plaintiff is a delivery driver for Defendants and
classiﬁed as an independent contractor. As a result of
that classiﬁcation, Plaintiff (and other drivers similarly classiﬁed) must supply their own vehicles and
pay expenses necessary to perform their jobs, such as
insurance, gas, phone, and data plan. Consequently,
Plaintiff alleges that his hourly wage fell below the
minimum required by Massachusetts law.
The parties’ agreement contained an arbitration
agreement, which reads:
YOU AND AMAZON AGREE TO RESOLVE
DISPUTES BETWEEN YOU AND AMAZON
ON AN INDIVIDUAL BASIS THROUGH FINAL AND BINDING ARBITRATION, UNLESS YOU OPT OUT OF ARBITRATION
WITHIN 14 CALENDAR DAYS OF THE EFFECTIVE DATE OF THIS AGREEMENT, AS
DESCRIBED BELOW IN SECTION 11.
(Docket No. 31-2, at 10) (emphasis in original). In addition, the agreement contained the following choiceof-law provision:
12. Governing Law.
The interpretation of this Agreement is governed by the law of the state of Washington,
except for Section 11 of this Agreement, which
is governed by the Federal Arbitration Act
and applicable federal law.
(Docket No. 31-2, at 15).

56a
Discussion
Written arbitration agreements are governed pursuant to the Federal Arbitration Act. 9 U.S.C. §§ 1-301.
See Circuit City Stores, Inc. v. Adams, 532 U.S. 105, 119
(2001) (holding that the FAA extends to employees
other than transportation workers in employment
cases). The FAA was enacted to combat “longstanding
judicial hostility to arbitration agreements and to
‘place such agreements upon the same footing as other
contracts.’ ” United States ex rel. Hagerty v. Cyberonics,
Inc., 146 F. Supp. 3d 337 (D. Mass. 2015) (quoting Allied-Bruce Terminix Cos., Inc. v. Dobson, 513 U.S. 265,
271 (1995)). When “construing an arbitration clause,
courts and arbitrators must ‘give effect to the contractual rights and expectations of the parties.’ ” StoltNielsen S.A. v. AnimalFeeds Int’l Corp., 559 U.S. 662,
682 (2010) (quoting Volt Information Sciences, Inc. v.
Board of Trustees of Leland Stanford Junior Univ., 489
U.S. 468, 479 (1989)). The FAA institutes “a liberal
federal policy favoring arbitration agreements” thus
“establish[ing] . . . as a matter of federal law, any
doubts concerning the scope of arbitrable issues should
be resolved in favor of arbitration.” Moses H. Cone
Mem’l Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 24-25
(1983).
1. FAA Transportation Worker Exemption
The FAA contains an exception for “contracts of
employment of seamen, railroad employees, or any
other class of workers engaged in foreign or interstate

57a
commerce.” 9 U.S.C. § 1. Plaintiff contends that his
employment as a last-mile delivery driver falls within
this exception and consequently that the FAA does not
apply.
In Circuit City v. Adams, the Supreme Court, interpreting the exemption, relied on the general principle of statutory interpretation ejusdem generis, which
provides that general words following speciﬁc words in
statutes should be interpreted to be similar in nature
to the speciﬁc words they follow. 532 U.S. 105, 114-15
(2001). Accordingly, the Court held that “the residual
clause should be read to give effect to the terms ‘seamen’ and ‘railroad employees,’ and should itself be
controlled and deﬁned by reference to the enumerated
categories of workers which are recited just before
it.” Id. at 115. Therefore, the question presented is
whether reading the residual clause to apply to lastmile delivery drivers gives effect to the enumerated
categories of workers in the exception.
Although the Court narrowly interpreted the exemption, it did not provide any further guidance regarding which transportation workers fall within its
scope. The First Circuit has not yet had the occasion
to address how courts should interpret the residual
clause. And “[a]lthough several other circuit courts
throughout the country have addressed the topic,
little consensus has been realized.” Kowalewski v.
Samandarov, 590 F. Supp. 2d 477, 484 (S.D.N.Y. 2008).
There is one area, however, where a consensus has

58a
emerged: truck drivers.1 “[T]hat is, drivers actually involved in the interstate transportation of physical
goods . . . have been found to be ‘transportation workers’ for purposes of the residuary exemption in Section
1 of the FAA.” Id.; see also Lenz v. Yellow Transp., Inc.,
431 F.3d 348, 351 (8th Cir. 2005) (“Indisputably, if Lenz
were a truck driver, he would be considered a transportation worker under § 1 of the FAA.”); Palcko v. Airborne Express, 372 F.3d 588, 593-94 (3d Cir. 2004)
(assuming that truck drivers fall within the scope of
the exemption); Harden v. Roadway Package Sys., 249
F.3d 1137, 1140 (9th Cir. 2001) (“As a delivery driver
. . . Harden contracted to deliver packages ‘throughout
the United States, with connecting international service.’ Thus, he engaged in interstate commerce that is
exempt from the FAA.”); Carr v. Transam Trucking,
Inc., 2008 WL 1776435, at *2 (N.D. Tex. Apr. 14, 2008)
(“Truck drivers, like plaintiff, are considered ‘transportation workers’ within the meaning of this exemption.”); Veliz v. Cintas Corp., 2004 WL 2452851, at *5
(N.D. Cal. Apr. 5, 2014) (“The most obvious case where
a plaintiff falls under the FAA exemption is where the
plaintiff directly transports goods in interstate [commerce], such as [an] interstate truck driver whose
1

In Oliveira v. New Prime, Inc., the First Circuit assumed,
without deciding, that truck drivers engaged in interstate commerce fell within the scope of the residual clause. 857 F.3d 7, 17
(1st Cir. 2017) (“Prime does not dispute that Oliveira, whose work
for Prime included driving a truck across state lines, is a ‘transportation worker’ within the meaning of the § 1 exemption, as
interpreted by Circuit City. Thus, we have no need to deﬁnitively
decide that issue.”).

59a
primary function is to deliver mailing packages form
one state into another.”).
Unlike truck drivers engaged in interstate commerce, however, Plaintiff does not carry goods across
state lines. Defendants argue that this distinction
precludes application of the exemption to last-mile
drivers. See Magana v. DoorDash, Inc., 343 F. Supp. 3d
891, 899 (N.D. Cal. 2018) (concluding exemption did
not apply to a plaintiff who did “not allege that he ever
crossed state lines as part of his work. As such, there
is no allegation that he engaged in interstate commerce under the deﬁnition of the narrowly-construed
term.”). Vargas v. Delivery Outsourcing, LLC, 2016 WL
946112, at *4 (N.D. Cal. Mar. 14, 2016) (ﬁnding drivers
not within the residual exemption because the evidence did “not support the conclusion that Plaintiffs
made interstate deliveries even occasionally.”); Levin
v. Caviar, Inc., 146 F. Supp. 3d 1146, 1152 (N.D. Cal.
2015) (ﬁnding a driver who delivered prepared meals
did not fall within the exemption because he did “not
shown that he or any other similarly situated delivery
driver ever made trips across state lines” and because
the defendant did “not identify itself as being engaged
in the interstate transport of goods . . . nor are the prepared meals Plaintiff delivers a type of good . . . that is
‘indisputably’ part of the ‘stream of commerce.’ ”).
The cases above, however, are distinguishable
from the facts here. The plaintiffs in Magana and
Levin, for instance, delivered prepared meals from local restaurants or merchants to local customers. See
Magana, 343 F. Supp. 3d at 895; Levin, 146 F. Supp. 3d

60a
at 1154 (“[I]ngredients contained in the food that
Plaintiff ultimately delivered from restaurants ended
their interstate journey when they arrived at the restaurant where they were used to prepare meals.”).
Here, however, the goods do not stop and a restaurant
where they are cooked and combined to create a new
product. Instead there is a “continuity of movement”
of the goods delivered by Amazon interstate until they
reach customers. See Walling v. Jacksonville Paper Co.,
317 U.S. 564, 568 (1943) (“A temporary pause in their
transit does not mean that [goods] are no longer ‘in
commerce’ within the meaning of [the Fair Labor
Standards Act]. As in the case of an agency if the halt
in the movement of the goods is a convenient intermediate step in the process of getting them to their ﬁnal
destinations, they remain ‘in commerce’ until they
reach those points. Then there is a practical continuity
of movement of the goods until the reach the customers
for whom they are intended. That is sufﬁcient. Any
other test would allow formalities to conceal the continuous nature of the interstate transit which constitutes commerce.”).2 In addition, in Vargas, the plaintiff
2

Although Walling involved the Fair Labor Standards Act
rather than the FAA, it does provide valuable guidance to interpret the phrase “engaged in commerce.” See also Merchants Fast
Motor Lines, Inc. v. I.C.C., 5 F.3d 911, 917 (5th Cir. 1993) (holding
that local drivers operate in interstate commerce “when a shipper
ships goods into Texas from another state, temporarily stores the
goods at a warehouse in Texas, then later ships the goods to the
shipper’s Texas customer” using local delivery drivers); Ehrlich v.
Rich Prod. Corp., 767 Fed. Appx. 845, 848 (11th Cir. 2019) (“We
conclude that . . . the RSRs were engaged in interstate commerce
when making their deliveries. Although the RSRs transported
the products only in Florida, their deliveries were a part of a

61a
delivered delayed airline luggage to its owners. The
luggage, however, “was not a ‘good’ to be delivered until
it was delayed or lost by the airline and then discovered when it was already intrastate. Much like a food
delivery service, a luggage delivery service is not engaged in interstate commerce because it is not in the
business of shipping goods across state lines, even
though it delivers good that once travelled interstate.”
Rittmann v. Amazon.com, Inc., 383 F. Supp. 3d 1196,
1200 (W.D. Wash. 2019) (distinguishing delivery drivers
in Vargas from last-mile delivery drivers for Amazon).
Here, on the other hand, the goods are “goods” for their
entire journeys across state lines.
Courts have also held that while physically transporting goods across state lines is a factor to be considered, it is not a necessary condition to the application
of the residual exemption. See Palcko v. Airborne Express, Inc., 372 F.3d 588, 593-94 (3d Cir. 2004) (“[H]ad
Congress intended the residual clause of the exemption to cover only those workers who physically transported goods across state lines, it would have phrased
the FAA’s language accordingly.”); Lenz v. Yellow
Transp., Inc., 431 F.3d 348, 352 (8th Cir. 2005);
Bacashihua v. United States Postal Serv., 859 F.2d 402,
405 (6th Cir. 1988) (ﬁnding that the concern is “not
whether the individual worker actual engaged in interstate commerce, but whether the class of workers to
which the complaining worker belonged engaged in
continuous stream of intestate commerce because there was a
practical continuity of movement between the RSRs’ deliveries to
the retail stores and the overall interstate ﬂow.”).

62a
interstate commerce”); Christie v. Loomis Armored US,
Inc., 2011 WL 6152979, at *3 (D. Colo. Dec. 9, 2011)
(“[A]n employee need not actually transport goods
across state lines to be part of a class of employees engaged in interstate commerce.”). But see Magana, 343
F. Supp. 3d at 899 (ﬁnding exemption did not apply
where plaintiff did “not allege that he ever crossed
state lines as part of his work”). In Palcko, the plaintiff
worked for Airborne, a package transportation and delivery company engaged in intrastate, interstate, and
international shipping. 372 F.3d at 590. The plaintiff
supervised truck drivers who “delivered packages from
Airborne’s facility near the Philadelphia International
Airport to their ultimate destinations in the Philadelphia area, and picked up packages form customers in
the Philadelphia area and brought them back to Airborne’s facility for shipment.” Id. Nonetheless, the
Third Circuit held that the plaintiff fell within the residual exemption despite the fact there was no evidence that any of the drivers whom she supervised
delivered packages across state lines because her work
“was so closely related to interstate and foreign commerce as to be in practical effect part of it.” Id. at 593.
In Lenz, the Eight Circuit provided the follow list
of factors to assist courts in determining whether an
employee ﬁts within the § 1 exemption of the FAA:
[F]irst, whether the employee works in the
transportation industry; second, whether the
employee is directly responsible for transporting the goods in interstate commerce; third,
whether the employee handles goods that

63a
travel interstate; fourth, whether the employee supervises employees who are themselves transportation workers, such as truck
drivers; ﬁfth, whether, like seamen or railroad
employees, the employee is within a class of
employees for which special arbitration already existed when Congress enacted the
FAA; sixth, whether the vehicle itself is vital
to the commercial enterprise of the employer;
seventh, whether a strike by the employee
would disrupt interstate commerce; and
eighth, the nexus that exists between the employee’s job duties and the vehicle the employee uses in carrying out his duties.
431 F.3d at 352. Here, the Plaintiff clearly works in
the transportation industry and handles goods that
travel interstate. Further, the vehicle Plaintiff uses to
deliver packages is vital to Amazon’s commercial enterprise and central to Plaintiff ’s job duties.3
And while courts have held that crossing state
lines is not necessary to apply the exemption, they
have also held that transporting goods intrastate that
have previously moved interstate can be sufﬁcient to
apply the exemption. See, e.g., Nieto v. Fresno Beverage
Co. Inc., 33 Cal. App. 5th 274, 284, 245 Cal.Rptr.3d 69
(2019) (“Nieto’s deliveries, although intrastate, were
3

It is true that Plaintiff does not supervise other employees,
but as Plaintiff points out, this factor is meant to broaden the exemption to workers who do not directly engage in transporting
goods. Consequently, the inapplicability of the fourth factor to
Plaintiff does not preclude ﬁnding he falls within the scope of the
exemption.

64a
essentially the last phase of a continuous journey of
the interstate commerce . . . being transported until
reaching its destination(s) to VWB’s customers. Accordingly, as a delivery truck driver for VWB, Nieto
was engaged in interstate commerce through his participation in the continuation of the movement of interstate goods to their destinations.”); Rittmann, 383
F. Supp. 3d at 1200 (ﬁnding last-mile delivery drivers
for Amazon within the residual exemption because
Amazon is in the business of shipping good across state
lines); see also Lenz, 431 F.3d at 352 (instructing courts
to consider whether employees handle goods that
travel in interstate). Thus, while last-mile drivers
themselves may not cross state lines, they are indispensable parts of Amazon’s distribution system. That
system, of course, transports goods in interstate commerce. In the end, Plaintiff ’s employment, like the
plaintiff in Palcko, is so closely related to interstate
commerce as to be part of it.
In addition, courts have considered whether a
strike by the employee would disrupt interstate commerce. See, e.g., Lenz, 431 F.3d 348, 352. Here, I ﬁnd
that a strike by last-mile delivery drivers for Amazon
would disrupt interstate commerce. Amazon is the
largest online retailer in the United States, accounting
for about half of the e-commerce market. See Docket
No. 34-3. Accordingly, a strike would almost certainly
interrupt interstate commerce. “A strike by Plaintiffs
would be akin to local UPS or FedEx drivers striking—
a strike by UPS or FedEx drivers, who only personally
travel intrastate, would cause a ripple effect in

65a
interstate commerce because goods travelling interstate would still not make it to their ﬁnal destination.”
Rittmann, 2019 WL 1777725, at *4 (considering the effects of a strike by Amazon last-mile drivers). Therefore, I ﬁnd that Plaintiff falls within the Section 1
transportation worker exemption.
2. Choice of Law
“Section 1 [of the FAA] does not, however, in any
way address the enforceability of employment contracts exempt from the FAA. It simply excludes these
contracts from FAA coverage entirely.” Valdes v. Swift
Transp. Co., Inc., 292 F. Supp. 2d 524, 529 (S.D.N.Y.
2003). Accordingly, “[w]hen a contract with an arbitration provision falls beyond the reach of the FAA, courts
look to state law decide whether arbitration should be
compelled nonetheless.” Breazeale v. Victim Servs.,
Inc., 198 F. Supp. 3d 1070, 1079 (N.D. Cal. 2016); see
also Shanks v. Swift Transp. Co., 2008 WL 2513056, at
*4 (S.D. Tex. June 19, 2008) (“While the FAA does not
require arbitration, the question remains whether the
exemption of Section 1 operates as a form of reverse
preemption, so as to prohibit arbitration of the dispute
altogether. Plainly, it does not. The weight of authority
shows that even if the FAA is inapplicable, state arbitration law governs.”); Oliveira, 857 F.3d at 24 (noting
that the transportation worker exemption “applies
only when arbitration is sought under the FAA, and it
has no impact on other avenues (such as state law) by
which a party may compel arbitration”).

66a
Plaintiff argues that the Court should either ﬁnd
the arbitration agreement unenforceable or ﬁnd that
Massachusetts law applies. In Rittmann, the court
found the plaintiffs were within the FAA’s transportation worker exemption but was then unable to discern
which state’s law applied to govern the arbitration
agreement. Accordingly, the court held: “Because it is
not clear what law to apply to the Arbitration Provision or whether the parties intended the Arbitration
Provision to remain enforceable in the event that the
FAA was found to be inapplicable, the Court ﬁnds that
there is not a valid agreement to arbitrate.” 2019 WL
1777725, at *5.
Amazon contends that if federal law does not
govern the arbitration agreement, the Washington
choice-of-law provision requires the Court to apply
Washington law.
The choice-of-law provision
reads:
12. Governing Law.
The interpretation of this Agreement is governed by the law of the state of Washington,
except for Section 11 of this Agreement, which
is governed by the Federal Arbitration Act
and applicable federal law.
(Docket No. 31-2, at 15). The agreement, however, explicitly indicates that Washington will not apply to
the arbitration agreement.4 Had “the parties intended
4

Amazon also argues that the severability provision nonetheless requires applying Washington law. That provision reads,
in relevant part:

67a
Washington law to apply if the FAA was found to be
inapplicable, they would have said so or even remained
silent on the issue. Instead, they did the opposite . . .
[by] explicitly indicat[ing] that Washington law is not
applicable to the Arbitration Provision. Indeed, it appears that it is precisely against the parties’ intent to
apply Washington law to the Arbitration provision.”
Rittmann, 383 F. Supp. 3d at 1203.5 Accordingly, I ﬁnd
that Washington law does not apply.

16. Entire Agreement and Severability; Survival
. . . If any provision of this Agreement is determined to
be unenforceable, the parties intend that this Agreement be enforced as if the unenforceable provisions
were not present and that any partially valid and enforceable provisions be enforced to the fullest extent
permissible under applicable law.
(Docket No. 31-2, at PAGE). It is unclear, however, how the severability provision supports applying Washington law.
5
In Palcko, for instance, the arbitration agreement read:
Except as provided in this Agreement, the Federal Arbitration Act shall govern the interpretation, enforcement and all proceedings pursuant to this Agreement.
To the extent that the Federal Arbitration Act is inapplicable, Washington law pertaining to agreements to
arbitrate shall apply.
Palcko, 372 F.3d at 590 (emphasis added). If Amazon wanted
Washington law to apply, it could have drafted a similar agreement. Thus, the court will not interpret the ambiguity here in
Amazon’s favor since it is responsible for the inartful drafting.
See Nadherny v. Roseland Prop. Company, Inc., 390 F.3d 44, 49
(1st Cir. 2004) (noting “the interpretive ground rule that ambiguous terms are usually to be construed against the drafter”).

68a
I also ﬁnd, unlike in Rittmann, the parties clearly
agreed to arbitrate. The beginning of the agreement
reads:
YOU AND AMAZON AGREE TO RESOLVE
DISPUTES BETWEEN YOU AND AMAZON
ON AN INDIVIDUAL BASIS THROUGH FINAL AND BINDING ARBITRATION, UNLESS YOU OPT OUT OF ARBITRATION
WITHIN 14 CALENDAR DAYS OF THE EFFECTIVE DATE OF THIS AGREEMENT, AS
DESCRIBED BELOW IN SECTION 11.
(Docket No. 31-2, at 10) (emphasis in original). This
provision evidences an intent to arbitrate independent
of the choice-of-law provision. See Diaz v. Michigan Logistics Inc., 167 F. Supp. 3d 375, 381 (E.D.N.Y. 2016)
(ﬁnding that the “inapplicability of the FAA does not
render the parties’ arbitration provision unenforceable” because the “arbitration provision clearly demonstrates the parties’ intent to arbitrate disputes”).6
Accordingly, the Court must determine which
state’s laws apply. “A federal court sitting in diversity
ordinarily must follow the choice-of-law rules of the
State in which it sits.” Atl. Marine Constr. Co. v. U.S.
Dist. Court for W. Dist. of Tex., 571 U.S. 49, 65 (2013).
“This applies to actions brought under the Class Action
6

In Diaz, the agreement read: “this Arbitration Provision is
intended to apply to the resolution of disputes that otherwise
would be resolved in a court of law, and therefore this Arbitration
Provision requires all such disputes to be resolved only by an arbitrator through ﬁnal and binding arbitration and not by way of
court or jury trial.” 167 F. Supp. 3d at 381.

69a
Fairness Act as well, since CAFA is based upon diversity jurisdiction.” In re Facebook Biometric Info. Privacy Litig., 185 F. Supp. 3d 1155, 1167-68 (N.D. Cal.
2016) (quoting In re NVIDIA GPU Litig., 2009 WL
4020104, at *5 (N.D. Cal. Nov. 19, 2009)). Because
Amazon removed to this Court pursuant to CAFA, I
will apply Massachusetts choice-of-law rules.
In choice of law matters, Massachusetts courts
“look to [their] established ‘functional’ choice of law
principles and to the Restatement (Second) of Conﬂict
of Laws, with which those principles generally are in
accord.” Hodas v. Morin, 814 N.E.2d 320, 324 (Mass.
2004). Pursuant to the Restatement, “[t]he rights and
liabilities of the parties with respect to an issue in tort
are determined by the local law of the state which, with
respect to that issue, has the most signiﬁcant relationship to the occurrence and the parties under the principles stated in § 6.” Restatement (Second) Conflict
of Laws § 145(1).7 Accordingly, the Restatement instructs courts to consider the following factors when
making that determination: “(a) the place where the
injury occurred, (b) the place where the conduct causing the injury occurred, (c) the domicile, residence,
7

Section 6 instructs courts to consider “(a) the needs of the
interstate and international systems, (b) the relevant policies of
the forum, (c) the relevant policies of other interested states and
the relative interests of those states in the determination of the
particular issue, (d) the protection of justiﬁed expectations, (e) the
basic policies underlying the particular ﬁeld of law, (f ) certainty,
predictability and uniformity of result, and (g) ease in the determination and application of the law to be applied”). Restatement
(Second) Conﬂict of Laws § 6.

70a
nationality, place of incorporation and place of business of the parties, and (d) the place where the relationship, if any, between the parties is centered.”
Restatement (Second) Conﬂict of Laws § 145(2).8
Applying these factors to the facts of this case, the
Court will apply Massachusetts law. As Plaintiff notes,
“all critical facts concerning [his] work occurred in
Massachusetts.” (Docket No. 33, at 15).
3. Application of Massachusetts Law
“Where, as here, the plaintiff[ ] challenge[s] the
enforceability of a class action prohibition embedded
in a binding arbitration clause, they are ‘plainly’ challenging ‘the validity of the parties’ agreement to arbitrate,’ and a court is the appropriate forum for such a
challenge.” Feeney v. Dell Inc., 908 N.E.2d 753, 761

8

The Supreme Judicial Court has observed that wage laws
sound in tort since they “effectuate[ ] a jurisdiction’s interest in
regulating behavior within its borders.” Melia v. Zenhire, Inc.,
967 N.E.2d 580, 591 (Mass. 2012) (quotation marks and citation
omitted); see also Black’s Law Dictionary 1626 (9th ed. 2009) (deﬁning “tort” as “civil wrong, other than breach of contract, for
which a remedy may be obtained”). Other courts have interpreted
Wage Act violations as sounding in contract and consequently applied the factors outlined in Restatement (Second) Conﬂicts of
Laws § 188. See, e.g., Krause v. UPS Supply Chain Solutions,
Inc., 2009 WL 3578601, at *5 (D. Mass. Oct. 28, 2009); Lockley v.
Studentcity.com, Inc., 2018 WL 6933374, at *3 (Mass. Sup. Ct.
Dec. 5, 2018). Regardless, if the Court were to apply the factors
set forth in Section 188, all roads in this case lead back to the
Commonwealth.

71a
(Mass. 2009) (Feeney I) (quoting In re Am. Express Merchants’ Litig., 554 F.3d 300, 311 (2d Cir. 2009)).
Massachusetts courts generally respect parties’
freedom to contract. Beacon Hill Civic Ass’n v.
Ristorante Toscano, Inc., 662 N.E.2d 1015, 1017 (Mass.
1996); see also E.A. Farnsworth, Contracts § 5.1, at 345
(2d ed. 1990) (noting that freedom to contract “rests on
the premise that it is in the public interest to accord
individuals broad powers to order their affairs through
legally enforceable agreements”). Nevertheless, that
freedom is not absolute “for government cannot exist if
the citizen may at will . . . exercise his freedom of contract to work . . . harm [to his fellow citizens]. Equally
fundamental with the private right is [the right] of the
public to regulate it in the common interest.” Commonwealth v. Henry’s Drywall Co., 320 N.E.2d 911, 915
(Mass. 1974). Thus, “it is a principle universally accepted that the public interest in freedom of contract
is sometimes outweighed by public policy, and in such
cases the contract will not be enforced.” Beacon Hill,
662 N.E.2d at 1017. In this context, public policy “refers to a court’s conviction, grounded in legislation and
precedent, that denying enforcement of a contractual
term is necessary to protect some aspect of the public
welfare.” Id.
The Supreme Judicial Court has made clear that
class action waivers embedded in arbitration agreements may violate public policy. In Feeney I, for instance, the SJC declined to enforce a prohibition on
class actions in an arbitration agreement for several
public policy reasons. First, permitting the class action

72a
waiver would “undermine[ ] the public interest in deterring wrongdoing” because requiring plaintiffs to
proceed in individual arbitration would effectively bar
recovery. 908 N.E.2d at 765; see also Salvas v. WalMart Stores, Inc., 893 N.E.2d 1187, 1215 (Mass. 2008)
(“Class actions were designed not only to compensate
victimized group members, but also deter violations of
the law, especially when small individual claims are involved.” (quoting 2 A. Conte & H.B. Newberg, Class
Actions § 4.36, at 314 (4th ed. 2002))); Carnegie v.
Household Int’l, Inc., 376 F.3d 656, 661 (7th Cir. 2004)
(“It would hardly be an improvement to have in lieu of
this single class action 17,000,000 suits each searching
damages of $15.00 to $30.00. . . . The realistic alternative to a class action is not 17,000,000 individual suits,
but zero individual suits, as only a lunatic or a fanatic
sues for $30.00.”). Second, the legislative history of
Section 93A demonstrates “a strong public policy in favor of the aggregation of small consumer protection
claims.” 908 N.E.2d at 762; see also id. at 762-63 (describing the legislative history of Section 93A). Third,
“the loss of an individual consumer’s right to bring a
class action negatively affects the rights of those unnamed class members on whose behalf the class action
would proceed. In this sense, the right to participate
in a class action under G.L. c. 93A is a public—not
merely a private—right: it protects the rights of consumers as a whole.” Id. at 764.
After Feeney I was decided, the Supreme Court, in
AT&T Mobility LLC v. Concepcion, held that the FAA
preempted California’s rule that class waivers in

73a
arbitration agreements were unconscionable. 563 U.S.
333, 352 (2011). The SJC subsequently concluded that
“Feeney I survive[d] Concepcion to the extent that a
consumer plaintiff ‘can demonstrate that he or she effectively cannot pursue a claim against a defendant in
individual arbitration according to the terms of the arbitration agreement.’ ” Machado v. System4 LLC, 989
N.E.2d 464, 470 (Mass. 2013) (brackets omitted) (quoting Feeney v. Dell Inc., 989 N.E.2d 439, 441 (Mass.
2013) (Feeney II)).9 In other words, only the ﬁrst rationale noted above would permit courts to invalidate
class waivers in arbitration agreements where the
FAA applied.
In Machado, the SJC assessed the validity of a
class action waiver in an arbitration agreement in the
context of a Wage Act claim. The Court noted that
there was “no principled reason to limit Feeney I . . . to
consumer claims under G.L. c. 93A, because many of
the same public policy arguments apply equally well to
claims by employees under the Wage Act.” 989 N.E.2d
at 470. In that case, however, the plaintiff ’s claims
9

The Supreme Court’s subsequent decision in American Express Co. v. Italian Colors Restaurant, however, clariﬁed that
class action waivers in arbitration agreements are enforceable
under the FAA even if a plaintiff demonstrates the waiver effectively precludes him or her from vindicating statutory rights. 570
U.S. 228, 238-39, 133 S.Ct. 2304, 186 L.Ed.2d 417 (2013). Accordingly, the SJC since recognized that “Concepcion is not entitled to
the reading we afforded it in Feeney II and that the analysis the
Court set forth in Concepcion (and reinforced in Amex) applies
without regard to whether the claim sought to be vindicated
arises under Federal or State law.” Feeney v. Dell Inc., 466 Mass.
1001, 993 N.E.2d 329, 331 (2013) (Feeney III).

74a
were not small. See id. at 471 (“Unlike the plaintiffs
in Feeney II, whose claimed damages totaled $13.65
and $215.55, respectively, the individual plaintiffs here
claim damages that, in the form of improper franchise
fees alone, total $21,818.38, $17,227,93, $14,949.73,
and $9,541.83, respectively.”). Consequently, individual arbitration did not bar them from recovery as a
practical matter, and—because the ﬁrst rationale did
not apply—the SJC was forced to uphold the class
waiver.
Importantly, the SJC noted that, while the second
rationale applied with equal force to Wage Act claims,
it was “of no avail.” Id. at 470. The SJC recognized
“the very legitimate policy rationales underlying the
Legislature’s decision to provide for class proceedings
under the Wage Act, nor are we blind to the fact that
the Legislature may ﬁnd its purposes frustrated by
this outcome.” 989 N.E.2d at 470-71 (citation omitted);
see also Mass. Gen. Laws ch. 149, § 150 (“An employee
claiming to be aggrieved by a violation of [the Wage
Act] may . . . institute and prosecute in his own name
and on his own behalf, or for himself and others similarly situated, a civil action.”). Further, the third rationale also applies with equal force. “[T]he loss of an
individual [employee’s] right to bring a class action
negatively affects the rights of those unnamed class
members on whose behalf the class action would proceed. In this sense, the right to participate in a class
action under [the Wage Act] is a public—not merely a
private—right: it protects the rights of [workers] as a
whole.” Feeney I, 908 N.E.2d 753.

75a
Amazon argues that Feeney I and Machado are
inapposite because the public policy rationales in those
cases only applies when cases brought on an individual
basis would be prohibitively expensive for plaintiffs
and consequently chill enforcement. Amazon notes
that here Plaintiff has asserted that his individual
damages are nearly $14,000. (Docket No. 44, at 11).
The SJC concluded, however, that where the FAA applies class action waivers can only be invalidated if a
plaintiff is, as a practical matter, precluded from vindicating his or her rights in individual arbitration. See
Feeney II, 989 N.E.2d at 455 (“We do not interpret the
FAA so broadly as to deny a consumer any remedy, nor
do we discern any such congressional intent. A State
court’s invalidation [where plaintiffs are effectively
precluded from obtaining a remedy] survives not because it can be harmonized with the FAA, but because
the FAA does not conﬂict with such a ruling and therefore does not preempt it.”). Here, as noted above, the
FAA does not apply because Plaintiff ’s employment as
a last-mile driver falls within the scope of the Section
1 transportation worker exemption. Accordingly, the
Supreme Court’s holdings in Concepcion and American
Express do not narrow state public policy rationales for
prohibiting class action waivers in arbitration agreements. The requirement that plaintiffs must be effectively precluded from obtaining relief was a necessary
condition to evade arbitration where the FAA governed
the agreement based on the SJC’s reading of Concepcion. See Machado, 989 N.E.2d at 470. It is not necessary here.

76a
The Wage Act itself evidences an intent to permit
plaintiffs to proceed as a class. Further, precluding
class adjudication would negatively impact unnamed
class members, especially those who may have smaller
claims than Plaintiff. Because the FAA does not apply,
these public policy rationales are is sufﬁcient to invalidate the agreement.
4. Transfer or Stay
Amazon argues that the Court should transfer
this case based on the so-called “ﬁrst-to-ﬁle” rule.10
10

At least one district court in the First Circuit has declined
to apply the rule because it is not well-established within this
circuit. See e.g., Angela Adams Licensing, LLC v. Dynamic Rugs,
Inc., 463 F. Supp. 2d 82, 86 (D. Me. 2006) (declining to apply the
ﬁrst-to-ﬁle rule where “[the defendant] does not cite, and I am
unaware of, any First Circuit case law suggesting that the ‘ﬁrstto-ﬁle’ rule is well-settled law in this circuit. Furthermore, where
recognized, the ﬁrst-to-ﬁle rule is a matter of trial court discretion”). Other courts have concluded that the ﬁrst-to-ﬁle rule is a
factor to be considered in a Section 1404 analysis, but not alone
sufﬁcient to warrant transfer. See Hecker v. Petco Animal Supplies, Inc., 2017 WL 2461546 at *3 (N.D. Ill. June 7, 2017) (“[T]he
ﬁrst-ﬁled status of a particular suit, while relevant, is never dispositive of a party’s request to dismiss, transfer, or stay a secondﬁled suit. Other district courts in [the Seventh Circuit] have
adopted this approach, considering the ﬁrst-ﬁled nature of a suit
in light of the other considerations relevant under § 1404(a), and
have refrained from dismissing second-ﬁled, related suits.”).
Because several sessions of this Court have applied the rule,
however, I will assume that Amazon may seek transfer under
the first-to-file rule. See e.g., World Energy Alternatives, LLC v.
Settlemyre Industries, Inc., 671 F. Supp. 2d 215, 218 (D. Mass.
2009). Further, the First Circuit has recognized the “obvious concerns” that arise “when actions involving similar subject matter

77a
Alternatively, Amazon contends that the Court should
transfer this case to the Western District of Washington under 28 U.S.C. § 1404(a) or stay the action. I ﬁnd
Amazon’s arguments with respect to Section 1404 unconvincing. Nonetheless, transfer is warranted pursuant to the so-called “ﬁrst-to-ﬁle” rule.
a. Section 1404
Amazon next contends that this case should be
transferred pursuant to Section 1404. Under Section
1404(a), a court may transfer any civil action to any
other district where it may have been brought “[f ]or
the convenience of parties and witnesses, in the interest of justice.” 28 U.S.C. § 1404(a). In addition to convenience, courts must consider “various public-interest
considerations.” Atl. Marine, 571 U.S. at 62. Courts
typically separate the relevant factors into public and
private categories. 15 Charles Alan Wright, Arthur R.
Miller & Edward H. Cooper, Federal Practice and Procedure § 3847 (4th ed.). “Factors relating to the parties’ private interests include ‘relative ease of access
to sources of proof; availability of compulsory process
for attendance of unwilling, and the cost of obtaining
attendance of willing, witnesses; possibility of view of
premises, if view would be appropriate to the action;
and all other practical problems that make trial of a
are pending in different federal district courts” and emphasized
that where “the overlap between the two suits is nearly complete,
the usual practice is for the court that ﬁrst had jurisdiction to resolve the issues and the other side to defer.” TPM Holdings, Inc.
v. Intra-Gold Industries, Inc., 91 F.3d 1, 4 (1st Cir. 1996).

78a
case easy, expeditious and inexpensive.” Atl. Marine,
571 U.S. at 62 n.6 (quoting Piper Aircraft Co. v. Reyno,
454 U.S. 235, 241 n.6 (1981)). “Public-interest factors
may include ‘the administrative difﬁculties ﬂowing
from court congestion; the local interest in having localized controversies decided and home; [and] the interest in having the trial of a diversity case in a forum
that is at home with the law.’ ” Id. (quoting Piper, 454
U.S. at 241 n.6). “The Court must also give some
weight to the plaintiffs’ choice of forum.” Id.
Amazon argues that convenience of the parties
and witnesses supports transfer. According to Amazon, transfer to Washington “would be substantially
more convenient for the many witnesses who otherwise would be forced to testify about similar claims in
two separate actions pending at opposite ends of the
country.” (Docket No. 30, at 19). General proffers that
convenience dictates transfer, however, is not sufﬁcient. See Princess House, Inc. v. Lindsey, 136 F.R.D.
16, 18 (D. Mass. 1991) (“A party seeking transfer on
this basis [convenience] must, therefore, specify the
key witnesses to be called, accompanied by a general
statement as to what their testimony will entail.”).
Cf. Montoya v. CRST Expedited, Inc., 285 F. Supp. 3d
493, 501 (D. Mass. 2018) (declining to transfer where
“the convenience factor remains difﬁcult to evaluate
because the witness list is not clear”).

79a
b. First-to-File
Under the ﬁrst-to-ﬁle rule, “where the overlap between two suits is ‘nearly complete,’ the usual practice
is for the court where the case was ﬁrst ﬁled to resolve
the issues, and the other court to defer by either staying, transferring, or dismissing the action.” Thakkar v.
United States, 389 F. Supp. 3d 160, 170, 2019 WL
1993782, at *5 (D. Mass. May 6, 2019) (quoting TPM
Holdings v. Intra-Gold Indus., 91 F.3d 1, 4 (1st Cir.
1996)); see also In re Telebrands Corp., 824 F.3d 982,
984 (Fed. Cir. 2016) (noting that the ﬁrst-to-ﬁle “rule
stands for the common sense proposition that, when
two cases are the same or very similar, efﬁciency concerns dictate that only one court decide both cases”).
When deciding whether to apply the rule, courts must
consider: (1) which action was ﬁled ﬁrst; (2) the similarity of the parties; and (3) the similarity of the issues.
See Alltrade, Inc. v. Uniweld Prod., Inc., 946 F.2d 622,
625 (9th Cir. 1991).
However, “the ﬁrst-to-ﬁle rule is not to be applied
in a mechanical way. EMC Corp. v. Parallel Iron, LLC,
914 F. Supp. 2d 125, 127 (D. Mass. 2012). “By assessing the appropriateness of the ﬁrst-ﬁled rule on a
case-by-case basis, without reference to rigid requirements regarding similarities between parties and
claims, courts may exercise their discretion to promote
efﬁciency and comity.” Palagano v. NVIDIA Corp., 2015
WL 5025469, at *2 (E.D. Pa. Aug. 25, 2015). For instance, “it is not unusual that class actions are resolved
by settlement, and the settlement process can be complicated and made burdensome, and even frustrated, if

80a
two courts are attempting to deal with” the same subject matter. Byerson v. Equifax Information Servs., 467
F. Supp. 2d 627, 636 (E.D. Va. 2006). “Thus, even if the
claims in two separate class actions do not involve
identical parties, it would be extremely difﬁcult to ignore the efﬁciency gains that might result form consolidation.” Palagano, 2015 WL 5025469, at *2. Further,
“if application of the ﬁrst-ﬁled rule required complete
identity of issues and parties, then defendants in the
ﬁrst-ﬁled action may be incentivized to forum shop and
commence similar but nonidentical actions in other
venues,” resulting in duplicative litigation and potentially inconsistent rulings. Sinclair Cattle Co. Inc. v.
Ward, 80 F. Supp. 3d 553, 559 (M.D. Penn. 2015).
“Courts that transfer wage and hour actions under
the ﬁrst-ﬁled rule generally do so when the collective
identiﬁed in a state-law based second-ﬁled action falls
within the scope of a nationwide FLSA collective asserted in the ﬁrst ﬁled action.” Lloyd v. J.P. Morgan
Chase & Co., 2012 WL 3339045, at *2 (S.D.N.Y. Aug.
14, 2002).11 For instance, in Fryda v. Takeda Pharmaceuticals North America, No. 1:11-cv-00339, 2011 WL
1434997 (N.D. Ohio Apr. 14, 2011), the plaintiffs in
the second-ﬁled suit alleged violations of Ohio wage
laws and proposed a class composed entirely of Ohio
11

Multi-plaintiff actions under the FLSA are governed by
29 U.S.C. § 216(b) and are called “collective” or “representative”
actions rather than class actions. Despite the difference in terminology, collective actions are like class actions insofar as they address a similar alleged wrong suffered by a group of similarly
situated plaintiffs.

81a
citizens. Applying the ﬁrst-ﬁled rule, the court transferred the case, noting that the plaintiffs in the secondﬁled suit were a subset of the larger class and that the
Ohio state law and federal statutes applied the same
standards. Id. at *5.
On the other hand, in Wilkie v. Gentiva Health
Servs., 2010 WL 3703060 (E.D. Cal. Sep. 16, 2010), the
ﬁrst-ﬁled action was brought in the Eastern District of
New York, on behalf of a putative nationwide FLSA
collective, and also North Carolina and New York subclasses. Id. at *1. The later-ﬁled action was brought
against the same defendant in the Eastern District of
California and was also brought on behalf of a nationwide collective, and also a California class. Id. at *1-2.
The court declined to transfer pursuant to the ﬁrst-toﬁle rule because the “California class is separate and
distinct from any and all [of the ﬁrst-ﬁled actions] sub
classes.” Id. at *4. But see Palagano v. NVIDIA Corp.,
2015 WL 5025469 (E.D. Pa. Aug. 25, 2015) (applying
ﬁrst-to-ﬁle rule where later-ﬁled action on behalf of a
class of Pennsylvania residents and the ﬁrst-ﬁled action was brought on behalf of a nationwide collective,
with subclasses representing several states but not
Pennsylvania). Further, the Wilkie court concluded
that the “California law claims are dissimilar from
both the [ﬁrst-ﬁled] action’s FSLA claim and the North
Carolina and New York state law claims.” Wilkie, 2010
WL 3703060, at *4.
Here, I find that the parties are substantially
similar. Defendants in both cases are identical and
Plaintiff is—as well as other members of the putative

82a
Massachusetts class—are subsumed within the nationwide FLSA action in Rittmann. See Fryda, 2011
WL 1434997, at *5; Weinstein v. Metlife, Inc., No. 0604444, 2006 WL 3201045, at *4 (N.D. Cal. Nov. 6, 2006)
(“In a class action . . . it is the class, not the representative, that is compared” when deciding whether to apply
the ﬁrst-to-ﬁle rule). It is true that the putative class
in this action is composed entirely of Massachusetts
citizens and, like in Wilkie, is entirely distinct from the
California and Washington subclasses in Rittmann.
Cf. Hoyt v. Amazon.com, Inc., 2019 WL 1411222, at *5
(N.D. Cal. Mar. 28, 2019) (ﬁnding similarity of the parties and granting motion to transfer to the Rittmann
court where second action was entirely composed of a
California class and the putative class in Rittmann
had a California subclass). However, I do not agree
that mutually exclusive subclasses preclude ﬁnding
them similar. See e.g., Granillo v. FCA U.S. LLC, 2016
WL 8814351, at *4 (C.D. Cal. 2016) (ﬁnding parties
similar where two class actions involved same defendant and mutually exclusive classes); Cadenasso v.
Metropolitan Life Ins. Co., 2014 WL 1510853, at *10
(N.D. Cal. Apr. 15, 2014) (same). The ﬁrst-to-ﬁle rule
only requires similar parties, not identical ones. That
requirement is satisﬁed here.
The issues are also substantially similar. In both
actions, the plaintiffs allege that Amazon failed to pay
minimum wages and reimburse business expenses. Indeed, many of the statements in Plaintiff ’s complaint
“track[ ], virtually verbatim, statements form the complaint in the [Rittmann] action. Wiley v. Gerber Prod.

83a
Co., 667 F. Supp. 2d 171, 172 (D. Mass. 2009) (granting
motion to transfer). And while Plaintiff does raise
Massachusetts state law claims, the “[m]inor differences in potential damage relief between the FLSA
and the Massachusetts state labor laws are insigniﬁcant for purposes of this analysis.” Mazzantini v. Rite
Aid Corp., 829 F. Supp. 2d 9, 11 (D. Mass. 2011) (transferring Wage Act claim to the Middle District of Pennsylvania). Further, the Western District of Washington
“is entirely capable of addressing the Massachusetts
state law claims raised here.” Id.
Conclusion
For the reasons stated above, Amazon’s motion is
granted in part and denied in part. I ﬁnd that Plaintiff falls within the FAA’s transportation worker exemption and that the arbitration agreement is
unenforceable under Massachusetts law. Finally, pursuant to the ﬁrst-to-ﬁle rule, I ﬁnd that transfer to the
Western District of Washington is warranted.
SO ORDERED
/s/ Timothy S. Hillman
TIMOTHY S. HILLMAN
DISTRICT JUDGE

84a
APPENDIX C
United States Court of Appeals
For the First Circuit
-----------------------------------------------------------------------

No. 19-1848
BERNARD WAITHAKA
Plaintiff - Appellee
v.
AMAZON.COM, INC.; AMAZON LOGISTICS, INC.
Defendants - Appellants
-----------------------------------------------------------------------

Before
Howard, Chief Judge,
Torruella, Lynch, Lipez,
Thompson, and Kayatta,
Circuit Judges.
-----------------------------------------------------------------------

ORDER OF COURT
Entered: September 1, 2020
The petition for rehearing having been denied by
the panel of judges who decided the case, and the petition for rehearing en banc having been submitted to
the active judges of this court and a majority of the
judges not having voted that the case be heard en banc,
it is ordered that the petition for rehearing and the
petition for rehearing en banc be denied.

85a
By the Court:
Maria R. Hamilton, Clerk
cc:
Shannon Erika Liss-Riordan
Harold L. Lichten
Adelaide H. Pagano
James P. Walsh Jr.
Elizabeth M. Bresnahan
Noah J. Kaufman
Michael E. Kenneally
David B. Salmons
Mary Grace Patterson
Richard Abbott Samp
Steven Paul Lehotsky
Archis Ashok Parasharami
Peter Tolsdorf
Blythe H. Chandler
Jennifer Bennett
Toby J. Marshall
Elizabeth A. Adams

